APPENDIX

1a

APPENDIX A
NOTE: This order is nonprecedential.
United States Court of Appeals
for the Federal Circuit
__________________________

IDENIX PHARMACEUTICALS LLC,
UNIVERSITA DEGLI STUDI DI CAGLIARI,
Plaintiffs-Appellants
v.
GILEAD SCIENCES INC.,
Defendant-Appellee
__________________________

2018-1691
__________________________

Appeal from the United States District Court for the
District of Delaware in No. 1:14-cv-00846-LPS, Chief
Judge Leonard P. Stark.
__________________________

ON PETITION FOR REHEARING EN BANC
__________________________

Before PROST, Chief Judge, NEWMAN, LOURIE, DYK,
MOORE, O’MALLEY, REYNA, WALLACH, TARANTO,
CHEN, HUGHES, and STOLL, Circuit Judges.
PER CURIAM.

2a
ORDER
Appellants Idenix Pharmaceuticals LLC and
Universita Degli Studi di Cagliari filed a petition for
rehearing en banc. A response to the petition was
invited by the court and filed by Appellee Gilead
Sciences Inc. The petition was first referred as a
petition for rehearing to the panel that heard the
appeal, and thereafter the petition for rehearing en
banc was referred to the circuit judges who are in
regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on May 1, 2020.
FOR THE COURT
April 24, 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

3a

APPENDIX B
United States Court of Appeals
for the Federal Circuit
__________________________

IDENIX PHARMACEUTICALS LLC,
UNIVERSITA DEGLI STUDI DI CAGLIARI,
Plaintiffs-Appellants
v.
GILEAD SCIENCES INC.,
Defendant-Appellee
__________________________

2018-1691
__________________________

Appeal from the United States District Court for the
District of Delaware in No. 1:14-cv-00846-LPS, Chief
Judge Leonard P. Stark.
__________________________

Decided: October 30, 2019
__________________________

GREGORY A. CASTANIAS, Jones Day, Washington,
DC, argued for plaintiffs-appellants. Also represented
by JENNIFER LORAINE SWIZE; LISA LYNN FURBY,
Chicago, IL; CALVIN GRIFFITH, RYAN BOYD MCCRUM,
Cleveland, OH; ANTHONY INSOGNA, San Diego, CA;
JEFFREY A. LAMKEN, SARAH JUSTINE NEWMAN,
MICHAEL GREGORY PATTILLO, JR., MoloLamken LLP,
Washington, DC.

4a
E. JOSHUA ROSENKRANZ, Orrick, Herrington &
Sutcliffe LLP, New York, NY, argued for defendantappellee. Also represented by EDMUND HIRSCHFELD;
ELIZABETH MOULTON, Menlo Park, CA; BRIAN PHILIP
GOLDMAN, San Francisco, CA; ERIC SHUMSKY,
Washington, DC; FRANK SCHERKENBACH, Fish &
Richardson, PC, Boston, MA; CRAIG E. COUNTRYMAN,
W. CHAD SHEAR, JONATHAN ELLIOT SINGER, San Diego,
CA.
__________________________

Before PROST, Chief Judge, NEWMAN and WALLACH,
Circuit Judges.
Opinion for the court filed by Chief Judge PROST.
Dissenting opinion filed by Circuit Judge NEWMAN.
PROST, Chief Judge.
Idenix Pharmaceuticals LLC and Universita Degli
Studi Di Cagliari (collectively, “Idenix”) appeal from
the decision of the U.S. District Court for the District
of Delaware granting judgment as a matter of law
(“JMOL”) against Idenix and finding that U.S. Patent
No. 7,608,597 is invalid for lack of enablement. Idenix
Pharm. LLC v. Gilead Scis., Inc., 2018 WL 922125, at
*25 (D. Del. Feb. 16, 2018) (“JMOL Opinion”). Gilead
Sciences Inc., (“Gilead”) argues that the patent is also
invalid for failure to meet the written description
requirement, and that the district court erred by
failing to grant JMOL on that ground as well. We
affirm as to non-enablement and hold that the patent
is also invalid for lack of written description.
I
This appeal stems from Idenix’s December 2013
patent infringement suit against Gilead, originally

5a
filed in the U.S. District Court for the District of
Massachusetts and later transferred to the District of
Delaware. J.A. 259–69. At the time of the suit, both
Idenix and Gilead were researching and developing
drugs for treatment of the hepatitis C virus (“HCV”).
HCV is a leading cause of chronic liver disease,
infecting hundreds of millions of people worldwide,
and accounting for tens of thousands of deaths per
year in the United States alone. Idenix alleged that
the imminent Food and Drug Administration
approval, and launch, of Gilead’s HCV treatment drug
sofosbuvir would infringe Idenix’s U.S. Pat. No.
7,608,597 (the “’597 patent”).
Following years of litigation, Chief Judge Stark held
a two-week jury trial in December 2016. Gilead
stipulated to infringement under the district court’s
claim construction but argued that the ’597 patent was
invalid for failure to meet the written description and
enablement requirements. The jury found for Idenix,
upholding the validity of the patent and awarding
damages. After trial, Gilead filed a renewed motion
for JMOL with respect to written description and
enablement. The district court denied the motion with
respect to written description but granted JMOL on
enablement, holding the ’597 patent invalid.
Idenix timely appealed. We have jurisdiction under
28 U.S.C. § 1295(a)(1).
II
We review the denial or grant of a motion for JMOL
under regional circuit law. See Tr. of Boston Univ. v.
Everlight Elecs. Co., 896 F.3d 1357, 1361 (Fed. Cir.
2018). Applying Third Circuit law, we “exercise
plenary review over a district court’s rulings on

6a
motions for JMOL, applying the same standard as the
district court.” Agrizap, Inc. v. Woodstream Corp., 520
F.3d 1337, 1341–42 (Fed. Cir. 2008) (citing Gagliardo
v. Connaught Labs., Inc., 311 F.3d 565, 568 (3d Cir.
2002)). A grant of JMOL is appropriate “where a party
has been fully heard on an issue during a jury trial and
the court finds that a reasonable jury would not have
had a legally sufficient evidentiary basis to find for the
party on that issue.” Id. at 1342; see Fed. R. Civ. P.
50(a).
Enablement requires that “the specification teach
those in the art to make and use the invention without
undue experimentation.” In re Wands, 858 F.2d 731,
737 (Fed. Cir. 1988). A claim is not enabled when, “at
the effective filing date of the patent, one of ordinary
skill in the art could not practice their full scope
without undue experimentation.” Wyeth & Cordis
Corp. v. Abbott Labs., 720 F.3d 1380, 1384 (Fed. Cir.
2013). Whether a claim satisfies the enablement
requirement is a question of law that we review de
novo. Tr. of Boston Univ., 896 F.3d at 1361. However,
“in the context of a jury trial, we review the factual
underpinnings of enablement for substantial
evidence.” Id.
III
The ’597 patent claims a method of treating HCV by
administering nucleoside compounds having a specific
chemical and stereochemical structure.
The
nucleosides claimed in the ’597 patent contain a sugar
ring having five carbon atoms, numbered 1’ (one
prime) to 5’ (five prime), as well as a base. At each
carbon, substituent atoms or groups of atoms can be
added in either the “up” or “down” position. This

7a
structure is illustrated below, with a hydroxyl group
(OH) shown attached at the 2'-down and 3'-down
positions:

Appellant’s Br. 8. The parties’ arguments focus on the
presence of various possible substituents at the 2'-up
and 2'-down positions.
Idenix argues that the key to its invention, and to
treatment of HCV, is the use of 2'-methyl-up
nucleosides:
nucleosides “having a methyl
substitution (‘CH3’) at the 2' ‘up’ position of the
molecule’s sugar ring,” illustrated below.

8a

Appellant’s Br. 7–8.
Gilead argues that this characterization is overly
broad, as the ’597 patent provides no guidance in
determining which of the billions of potential 2'methyl-up nucleosides are effective in treating HCV.
See Appellee’s Br. 8. According to Gilead, the ’597
patent primarily describes 2'-methyl-up nucleosides
that have a hydroxyl group (OH) at the 2'-down
position. But Gilead’s accused product has fluorine
(F), not OH, at the 2'-down position. Id. According to
Gilead, the ’597 patent cannot enable the full scope of
effective 2'-methyl-up nucleosides at least because its
accused embodiment, 2'-methyl-up 2'-fluoro-down, is
not disclosed in or enabled by the specification. 1
The only independent claim of the ’597 patent
recites:
1

We have previously held that an Idenix patent on similar
technology failed to enable 2'-methyl-up 2'-fluoro-down
nucleosides, albeit in a different procedural posture. See Storer
v. Clark, 860 F.3d 1340 (Fed. Cir. 2017).

9a
1. A method for the treatment of a hepatitis C
virus infection, comprising administering an
effective amount of a purine or pyrimidine β-D-2'methyl-ribofuranosyl nucleoside or a phosphate
thereof, or a pharmaceutically acceptable salt or
ester thereof.
’597 patent claim 1. The district court construed the
structural limitation “β-D-2'-methyl-ribofuranosyl
nucleoside” to require “a methyl group in the 2' up
position and non-hydrogen substituents at the 2' down
and 3' down positions.” Idenix Pharm., Inc. v. Gilead
Scis., Inc., 2015 WL 9048010, at *6 (D. Del. Dec. 16,
2015) (“Claim Construction Order”). Thus, while the
claim requires methyl at the 2'-up position, it allows
nearly any imaginable substituent at the 2'-down
position. 2
At Idenix’s urging, the district court also construed
the preamble, “[a] method for the treatment of a
hepatitis C virus infection,” as a narrowing functional
limitation. Idenix Pharm. LLC v. Gilead Scis., Inc.,
2016 WL 6802481, at *5 (D. Del. Nov. 16, 2016). In
combination with the requirement to administer an
“effective amount,” this claim language “limit[s] the
scope of the claims to the use of some set of compounds
that are effective for treatment of HCV.” Id. at *6.
Neither party challenges the district court’s claim
constructions in this appeal. Claim 1, therefore,
encompasses any β-D nucleoside meeting both the
structural limitations (including a methyl group at 2'up) and the functional limitations (efficacy in treating
2

Neither party contends that the sole limitation on 2'down, which excludes hydrogen substituents, is significant in this
appeal.

10a
HCV). It is undisputed, however, that there are
billions of potential 2'-methyl-up nucleosides. The key
enablement question is whether a person of ordinary
skill in the art would know, without undue
experimentation, which 2'-methyl-up nucleosides
would be effective for treating HCV. We conclude that
they would not. 3 Taking into account the evidence
3

The dissent, making an argument not advanced by Idenix
at trial or before us, reaches the opposite conclusion only by
disregarding the district court’s binding claim construction,
ignoring the resulting stipulation of infringement, and analyzing
a case that is not the one presented to us.
Before the district court, Gilead proposed a narrow claim
construction that required “hydroxyl groups at the 2' down and 3'
down positions.” Claim Construction Order at *6. Because
Gilead’s accused product has fluorine at 2'-down, rather than a
hydroxyl group, this would have resulted in non-infringement.
However, the district court expressly rejected that proposal,
instead adopting a broader construction that allowed for any
“non-hydrogen substituents,” including fluorine. Id. On the basis
of that broad construction, Gilead stipulated to infringement, and
the parties held a trial solely on invalidity. J.A. 6. Neither side
challenged the claim construction on appeal, and the issue is not
before us.
The question before us is whether the ‘597 patent enables the
full scope of its claims under the district court’s broad
construction. The dissent declines to answer that question, and
instead applies its own “narrow” claim construction, under which
only hydroxyl groups are permitted at the 2'-down position.
Dissent at 3; id. at 7 (limiting claim to where “R7 is OH”); id. at
12 (“narrow formula of three OH groups and a CH3 group as
pictured”). In essence, the dissent adopts Gilead’s rejected claim
construction. Indeed, the dissent admits that under its new claim
construction, Gilead’s accused product “is not within the scope of
the claims.” Dissent at 15.
We agree with the dissent that, under a narrower
construction, the claims of the ‘597 patent might well be enabled,

11a
presented at trial, a reasonable jury would not have
had a legally sufficient basis to find otherwise.
In analyzing undue experimentation, we consider
the factors first enumerated in In re Wands. The
uncontested jury instructions in this case formulate
the Wands factors as follows:
(1) the quantity of experimentation necessary;
(2) how routine any necessary experimentation
is in the relevant field;
(3) whether the patent discloses specific working
examples of the claimed invention;
(4) the amount of guidance presented in the
patent;
(5) the nature and predictability of the field;
(6) the level of ordinary skill; and
(7) the scope of the claimed invention.
J.A. 179; see Wands, 848 F.3d at 737. The parties
agree that the level of ordinary skill in the art is high,
but dispute the impact of the remaining factors. We
discuss each in turn.
A
We agree with the district court that the quantity of
experimentation required to determine which 2'and the accused product would not infringe. But that is not the
case before us. We are tasked with deciding whether the claims¸
as construed, are enabled. The dissent appears to agree with us
that they are not. Dissent at 12 (“the ‘597 specification did not
describe and enable products other than . . . the narrow formulas
of three OH groups”). But rather than answer that question, the
dissent has applied its newly invented claim construction to find
a hypothetical narrower claim valid but not infringed.
Respectfully, that is no way to conduct an appeal.

12a
methyl-up nucleosides meet claim 1 is very high,
which favors a finding of non-enablement. The
evidence presented to the jury could not support any
other finding. At trial, Gilead presented expert
testimony that because the claim allows for nearly any
substituent to be attached at any position (other than
2'-up), a person of ordinary skill in the art would
understand that “billions and billions” of compounds
literally meet the structural limitations of the claim.
J.A. 37545.
Idenix did not dispute that math, but argued to the
jury that this approach was merely “theoretical,”
because a person of ordinary skill in the art (“POSA”)
would not attach substituents at random. See J.A.
37734. Instead, Idenix argued, a POSA would know to
“take into account the patent as a whole” to focus on a
“significantly smaller” set of candidate compounds.
Id. The district court accepted this argument, but
concluded that even taking into account the
knowledge and approach of a POSA, the candidate
compounds number “likely[] millions or at least many,
many thousands.” JMOL Opinion, at *12.
On the evidence presented, a reasonable jury could
only have concluded that at least “many, many
thousands” of candidate compounds exist. Idenix’s
evidence, which supports at best an unspecified
number “significantly smaller” than “billions,” could
not lead a reasonable jury to any other conclusion. As
Gilead points out, even hundreds of millions is a
“significantly smaller” number when the starting
point is “billions and billions.” Appellee’s Br. 35–36.
Idenix’s counsel conceded that in its “best case,”
considering the knowledge of a POSA, the structural

13a
limitations still encompass “some
thousands” of compounds. J.A. 40013.

number

of

This conclusion is supported by the ’597 patent
itself, which discloses enormous quantities of 2'methyl-up nucleosides that would need to be tested for
efficacy against HCV. The specification contains 18
Formulas, each of which is represented by a diagram
with variables at multiple positions. For example,
Formula XVII, described as the “eleventh principal
embodiment,” provides:
a compound of Formula XVII, or a
pharmaceutically acceptable salt or prodrug
thereof:

wherein:
Base is a purine or pyrimidine base as defined
herein;
R1 and R2 are independently H; phosphate
(including
monophosphate,
diphosphate,
triphosphate, or a stabilized phosphate prodrug);
acyl (including lower acyl); alkyl (including lower
alkyl); sulfonate ester including alkyl or arylalkyl
sulfonyl including methanesulfonyl and benzyl,
wherein the phenyl group is optionally
substituted with one or more substituents as

14a
described in the definition of aryl given herein; a
lipid, including a phospholipid; an amino acid; a
carbohydrate; a peptide; a cholesterol; or other
pharmaceutically acceptable leaving group which
when administered in vivo is capable of providing
a compound wherein R1 or R2 is independently H
or phosphate;
R6 is hydrogen, hydroxy, alkyl (including lower
alkyl), azido, cyano, alkenyl, alkynyl, Br-vinyl, —
C(O)O(alkyl), —C(O)O(lower alkyl), —O(acyl), —
O(lower acyl), —O(alkyl), —O(lower alkyl), —
O(alkenyl), chloro, bromo, fluoro, iodo, NO 2 , NH 2 ,
—NH(lower alkyl), —NH(acyl), —N(lower
alkyl) 2 , —N(acyl) 2 ;
R7 and R9 are independently hydrogen, OR2,
hydroxy, alkyl (including lower alkyl), azido,
cyano, alkenyl, alkynyl, Br-vinyl, —C(O)O(alkyl),
— C(O)O(lower alkyl), —O(acyl), —O(lower acyl),
— O(alkyl), —O(lower alkyl), —O(alkenyl),
chlorine, bromine, iodine, NO 2 , NH 2 , —NH(lower
alkyl), — NH(acyl), —N(lower alkyl) 2 , —N(acyl) 2 ;
R10 is H, alkyl (including lower alkyl), chlorine,
bromine or iodine;
alternatively, R7 and R9, or R7 and R10 can come
together to form a pi bond; and
X is O, S, SO 2 or CH 2 .
’597 patent col. 12 ll. 20–67. The 2'-up position in this
formula, represented as R6, includes a methyl group as
one of two dozen possible substituents. 4 Even limiting
4

The term “alkyl” is defined in the ‘597 patent to include
methyl. ‘597 patent col. 37 ll. 9–25.

15a
this formula only to its 2'-methyl-up variations,
however, the formula provides more than a dozen
options at the R1 position, more than a dozen
independent options at the 2'-down position, more
than a dozen independent options at the 3'-down
position, and multiple independent options for the
base.
As the district court meticulously calculated, this
formula alone discloses more than 7,000 unique
configurations of 2'-methyl-up nucleosides. JMOL
Opinion, at *12. 5 Other formulas in the specification
provide equally large numbers of compounds. Idenix
argues that a POSA would have focused on only a
narrow subset of billions of possible candidates, but
the jury was not free to adopt a number lower than the
many, many thousands of configurations identified as
“principal embodiment[s]” in the patent itself. See,
e.g., ’597 patent col. 12 ll. 20–22. Testing the
compounds in the specification alone for efficacy

5

This figure is conservative, as the district court noted.
JMOL Opinion, at *12 (noting that “Formula XVII on its own
constitutes at least a minimum of approximately 7,000 unique
configurations” (emphasis added)). The number of candidates
disclosed by this formula is likely orders of magnitude higher.
For example, the district court’s calculation considered “alkyl” to
be one possible option at each position. But the specification
defines “alkyl” to include at least twenty distinct options that
could be substituted. ‘597 patent col. 37 ll. 9–26. The terms
“purine or pyrimidine base” and “acyl” are similarly each defined
to include at least twenty independent options. See id. at col. 37
l. 59–col. 38 l. 29; JMOL Opinion, at *12 n.11 (“The number of
possible configurations increases considerably (by an order of
magnitude) when all the compounds the patent defines as a
purine or pyrimidine base are taken into account.”).

16a
against HCV requires enough experimentation for this
factor to weigh in favor of non-enablement.
Idenix relatedly argues that a POSA would
understand the “focus” of the claim to be “the
inhibition of the NS5B polymerase” to effectively cure
HCV. Appellant’s Br. 16. Therefore, Idenix argues, a
POSA would know which candidates were likely to
inhibit NS5B, and would test only those, resulting in
a “predictable and manageable” group of candidate
compounds. Id. This argument improperly attempts
to narrow the claim to only those nucleosides that
would inhibit the NS5B polymerase. But the district
court’s claim construction, not challenged in this
appeal, made clear that “as a matter of law, NS5B
activity is not a claim limitation.” JMOL Opinion, at
*26 (emphasis in original).
Moreover, it would be improper to rely on a POSA’s
knowledge of NS5B to fill the gaps in the specification.
“It is the specification, not the knowledge of one skilled
in the art, that must supply the novel aspects of an
invention in order to constitute adequate enablement.”
Genentech, Inc. v. Novo Nordisk A/S, 108 F.3d 1361,
1366 (Fed. Cir. 1997). Idenix’s attempt to treat NS5B
as a claim limitation, based on the knowledge of a
POSA, would be an impermissible end-run around the
requirement to enable the full scope of the claim. 6
6
Idenix does not argue that the full scope of the claim
includes only compounds that inhibit the NS5B polymerase. Nor
could it, as the ‘597 patent describes treating HCV in other ways.
See ‘597 patent col. 139 ll. 30–32 (“Compounds can exhibit antihepatitis C activity by inhibiting HCV polymerase, or by
inhibiting other enzymes needed in the replication cycle, or by
other pathways.”).

17a
At oral argument here on appeal, Idenix presented
an additional theory for why little or no
experimentation was required. According to Idenix,
“the jury could have concluded that all 2'-methyl-up
ribonucleosides were active against the hepatitis C
virus, so that the numbers don’t matter. Screening [of
each candidate for efficacy against HCV] was
irrelevant.” Oral Arg. at 6:07–6:18, No. 2018-1691,
http://www.cafc.uscourts.gov/oral-argumentrecordings. We do not agree that the evidence
presented could have supported this conclusion.
Indeed, Idenix’s own evidence contradicts it.
At trial, Idenix’s expert agreed that the field of
modifying nucleosides for anti-HCV activity was “in its
infancy” and “unpredictable.” J.A. 37736. Another of
Idenix’s experts testified that screening was
performed to “actually cut down on the number of
compounds, by removing all inactive ones to a few
interesting ones.” J.A. 37747. A third Idenix expert
testified that “you don’t know whether or not a
nucleoside will have activity against HCV until you
make it and test it.” J.A. 37411. And at oral argument
on the post-trial motions, Idenix’s counsel agreed that
“not all 2' methyl up ribonucleosides will be effective
to treat HCV,” and therefore screening was necessary.
J.A. 40007; see also id. (“But would one have to do
some screening? Certainly.”) In light of this evidence,
and this concession, no reasonable jury could have
concluded that all 2'-methyl-up nucleosides were
effective against HCV or that no screening was
needed.
Because the claims of the ’597 patent encompass at
least many, many thousands of 2'-methyl-up
nucleosides which need to be screened for HCV

18a
efficacy, the quantity of experimentation needed is
large and weighs in favor of non-enablement.
B
The district court concluded that a reasonable jury
could only find that many candidate nucleosides would
need to be synthesized before they could be screened,
as not all candidate nucleosides were available for
purchase. We agree.
Idenix argues that “a significant number of
nucleosides were available off-the-shelf in libraries.”
Appellant’s Br. 40. However, in light of the billions of
possible 2'-methyl-up nucleosides, or even the many,
many thousands of nucleosides that meet the formulas
provided in the patent, no reasonable jury could
conclude that “a significant number” of available
nucleosides removes the need for synthesis. Moreover,
Idenix’s expert testified that synthesis was often
required even when starting with a compound
purchased from a library or database. See J.A. 37735
(“the general approach is starting from an intact
nucleoside that you can buy . . . and then you start
doing chemistry on this intact nucleoside and modify
the nucleoside structure in the sugar part or even the
base part”). In light of this evidence, a reasonable jury
could only have found that synthesis was necessary. 7
We do agree with Idenix, however, that a jury could
have found that the synthesis of an individual
compound was largely routine. Gilead argued that
7

Our analysis does not rely on the contested statement in
the district court’s opinion as to whether or not Idenix’s expert
expressly testified that “not all compounds of interest were
commercially available.” JMOL Opinion, at *15.

19a
synthesis was difficult, presenting the jury with
evidence of an Idenix scientist who repeatedly tried
and failed to synthesize 2'-methyl-up 2'-fluoro-down,
which is the nucleoside at issue in Gilead’s accused
product. See JMOL Opinion, at *16. Idenix countered
this with evidence of a scientist at a Gilead subsidiary
who produced a 2'-methyl-up 2'-fluoro-down compound
“in relatively short order.” See id. As a reviewing
court, “we are mindful that we ‘may not weigh the
evidence, determine the credibility of witnesses, or
substitute [our] version of facts for the jury’s version.’”
Agrizap, 520 F.3d at 1342 (quoting Lightning Lube,
Inc. v. Witco Corp., 4 F.3d 1153, 1166 (3d Cir. 1993)).
In light of this conflicting testimony, a reasonable jury
was entitled to conclude that a POSA could synthesize
this particular compound in relativity short order.
Because a jury could only have found that synthesis
of many 2'-methyl-up nucleosides was necessary, but
could have concluded that synthesis of an individual
nucleoside was largely routine, this factor weighs
against a finding of non-enablement.
C
We analyze the presence of working examples and
the amount of guidance presented in the specification
together. Idenix argues that these factors weigh
against non-enablement because the specification
“identifies the ‘key’ modification (2'-methyl-up)” and
contains “working examples of active 2'-methyl-up
ribonucleosides that were tested.” Appellant’s Br. 44.
We disagree.
Idenix contends that the ’597 patent provides
meaningful guidance as to which nucleosides meet the
functional limitations of the claim because it identifies

20a
the “key” modification of 2'-methyl-up. Appellant’s Br.
44. That is insufficient. An enabling disclosure must
“be commensurate in scope with the claim.” In re
Hyatt, 708 F.2d 712, 714 (Fed. Cir. 1983). Claim 1
requires more than just an identification of 2'-methylup: it requires identification of which 2'-methyl-up
nucleosides will effectively treat HCV.
Without
specific guidance on that point, the specification
provides “only a starting point, a direction for further
research.” ALZA Corp. v. Andrx Pharm., LLC, 603
F.3d 935, 941 (Fed. Cir. 2010). That guidance is
absent from the ’597 specification.
Idenix argues that the ’597 patent provides this
guidance because a POSA would understand NS5B to
be the “target” enzyme or would understand that the
modified nucleoside must have “either the natural OH (hydroxyl) or a mimicking substitute at 2'-down.”
Appellant’s Br. 38, 44. But reliance on a POSA is
insufficient to meet the enablement requirement. A
patent owner is “required to provide an enabling
disclosure in the specification; it cannot simply rely on
the knowledge of a person of ordinary skill to serve as
a substitute for the missing information in the
specification.” ALZA, 603 F.3d at 941. Even if we
credit Idenix’s position that a POSA would look for
compounds that would “target” NS5B, the
specification fails to provide an enabling disclosure. It
is not enough to identify a “target” to be the subject of
future testing. A specification that requires a POSA
to “engage in an iterative, trial-and-error process to
practice the claimed invention” does not provide an
enabling disclosure. Id.
It is true that the specification contains some data
showing
working
examples
of
2'-methyl-up

21a
nucleosides with efficacy against HCV. See ’597
patent col. 139 l. 61–col. 142 l. 57. As discussed,
however, the specification alone encompasses tens if
not hundreds of thousands of “preferred” 2'-methyl-up
nucleosides that would need to be tested for efficacy
against HCV. In the face of that broad disclosure, four
examples on a single sugar are insufficient to support
enablement. Where, as here, working examples are
present but are “very narrow, despite the wide breadth
of the claims at issue,” this factor weighs against
enablement. Enzo Biochem, Inc. v. Calgene, Inc., 188
F.3d 1362, 1374 (Fed. Cir. 1999); see Enzo Life Scis.,
Inc. v. Roche Molecular Sys., Inc., 928 F.3d 1340, 1348
(Fed. Cir. 2019) (working example that was
“insufficient to enable the breadth of the claims here,
especially in light of the unpredictability of the art” did
not support enablement).
Because the ’597 patent fails to provide meaningful
guidance as to which 2'-methyl-up nucleosides are or
are not effective against HCV, and because the only
working examples provided are exceedingly narrow
relative to the claim scope, these two factors weigh in
favor of non-enablement.
D
Based on the testimony presented at trial, a
reasonable jury could only have concluded that the use
of modified nucleosides to treat HCV was an
unpredictable art. Gilead’s experts testified at trial
that the art was “highly unpredictable” because “in the
nucleoside area . . . the smallest change can have a
dramatic effect not only on the activity of that
compound but on the toxicity of the compound. So
nothing is predictable.” J.A. 37547.

22a
Idenix’s experts also testified at trial that the field
was new and unpredictable. On cross-examination,
Idenix’s expert admitted that at the time the ’597
patent was invented, the field of “modified nucleosides
activity for HCV” was “in its infancy.” J.A. 37736. He
also admitted that, even as late as 2012, it was
“unpredictable to make a compound and determine
whether or not it is active” against HCV. J.A. 37736–
37. Another of Idenix’s witnesses confirmed that “you
don’t know whether or not a nucleoside will have
activity against HCV until you make it and test it.”
J.A. 37441.
In light of both parties’ testimony that the art was
unpredictable, this factor could only weigh in favor of
non-enablement. See In re Fisher, 427 F.2d 833, 839
(CCPA 1970) (“In cases involving unpredictable
factors, such as most chemical reactions and
physiological activity, the scope of enablement
obviously varies inversely with the degree of
unpredictability of the factors involved.”).
E
For largely the same reasons discussed with respect
to the quantity of experimentation factor, we conclude
that the scope of the claims could only support a
finding of non-enablement. On appeal, Idenix makes
two arguments specifically directed to this factor.
Neither is persuasive.
First, Idenix argues that “[w]hen required to take
all of the claim limitations into account, Gilead’s
witnesses described the claims as embracing only a
‘small’ number of compounds.” Appellant’s Br. 46.
This analysis is backwards. Gilead’s expert testified
that, in order for the ’597 patent to teach which 2'-

23a
methyl-up nucleosides effectively treat HCV, the
patent would need to detail “how to get from a large
number [of candidate compounds] to a relatively
speaking small number [of effective compounds].”
J.A. 37546–47. In other words, the ’597 patent leaves
a POSA searching for a needle in a haystack to
determine which of the “large number” of 2'-methyl-up
nucleosides falls into the “small” group of candidates
that effectively treats HCV.
The size disparity
between those two groups requires significant
experimentation, which weighs against enablement,
not for it. 8
Second, Idenix argues that the claim is not broad
because “evidence showed that the POSA, with
common sense, the claims, and the specification as
guidance, would focus on a narrow set of candidates.”
Appellant’s Br. 46. This factor, however, considers the
scope of the claim as written, not just the subset of the
claim that a POSA might practice. Idenix does not,
and cannot, argue that the scope of the claim is
actually limited to this narrow set of candidates. “[A]s
a matter of law, NS5B activity is not a claim
limitation.” JMOL Opinion, at *26 (emphasis in
original). We therefore conclude that the breadth of
the claims weighs in favor of non-enablement.
F
Weighing each of these factors, we conclude as a
matter of law that the ’597 patent is invalid for lack of
enablement. As described above, a reasonable jury
8

Although not necessary to our decision, we also note that
this “small number” argument is inconsistent with Idenix’s claim
at oral argument that the jury implicitly found that all 2'-methylup nucleosides are effective to treat HCV. Oral Arg. at 6:07–18.

24a
could only have found that at least many, many
thousands of 2'-methyl-up nucleosides meet the
structural limitations of claim 1, not all of which are
effective to treat HCV. Due to the unpredictability of
the art, and as admitted by Idenix, each of these
compounds would need to be screened in order to know
whether or not they are effective against HCV.
Moreover, a significant number of candidate 2'methyl-up nucleosides would need to be synthesized
before they could be screened, which increases at least
the quantity of experimentation required, even if the
synthesis was routine. Although the level of skill in
the art is high, the ’597 patent does not provide enough
meaningful guidance or working examples, across the
full scope of the claim, to allow a POSA to determine
which 2'-methyl-up nucleosides would or would not be
effective against HCV without extensive screening.
The immense breadth of screening required to
determine which 2'-methyl-up nucleosides are
effective against HCV can only be described as undue
experimentation.
Our decision in Wyeth and Cordis Corp. v. Abbott
Laboratories compels this conclusion, and as the
district court correctly acknowledged, the similarities
between that case and this one are striking. In Wyeth,
as here, we considered a claim that encompassed
“millions of compounds made by varying the
substituent groups,” while only a “significantly
smaller” subset of those compounds would have the
claimed “functional effects.” 720 F.3d at 1384. We
then credited the patent owner’s argument that, based
on the knowledge of a POSA, the number of candidate
compounds to be tested could be as little as “tens of
thousands.” Id. at 1384–85. In both cases, scientific

25a
testimony confirmed that practicing the full scope of
the claims would require synthesizing and screening
tens of thousands of candidate compounds for the
claimed efficacy. Compare id. at 1385 (Wyeth scientist
testifying “until you test [compounds], you can’t really
tell whether they work or not”), with J.A. 37441
(Idenix scientist testifying “you don’t know whether or
not a nucleoside will have activity against HCV until
you make it and test it”).
Notwithstanding the fact that screening an
individual compound for effectiveness was considered
“routine,” we concluded as a matter of law in Wyeth
that the claim was not enabled because there were “at
least tens of thousands of candidate compounds” and
“it would be necessary to first synthesize and then
screen each candidate compound.” Id. at 1385–86. As
we explicitly stated: “The remaining question is
whether having to synthesize and screen each of at
least tens of thousands of candidate compounds
constitutes undue experimentation. We hold that it
does.” Id. at 1385. That principle controls here. A
reasonable jury could only have concluded that there
were at least many, many thousands of candidate
compounds, many of which would require synthesis
and each of which would require screening. That
constitutes undue experimentation.
We are not persuaded by Idenix’s attempts to
distinguish Wyeth based on the state of the arts of
screening and synthesis in 1992, when the Wyeth
patent application was filed, as compared to 2000,
when Idenix’s first application was filed. Our decision
in Wyeth, and our decision here, rests on the “limits on
permissible experimentation,” not on the relative time
that the experimentation would take. Id. at 1386. We

26a
found the patent in Wyeth not enabled even while
“putting the challenges of synthesis aside,” and
accepting as true that screening was “routine[].” Id. at
1384, 1386. Where, as here, “practicing the full scope
of the claims would have required excessive
experimentation, even if routine,” the patent is invalid
for lack of enablement. Id. at 1384.
IV
We separately address the district court’s denial of
JMOL on the issue of written description. The Patent
Act contains a written description requirement
distinct from the enablement requirement. 35 U.S.C.
§ 112; see Ariad Pharm., Inc. v. Eli Lilly & Co., 598
F.3d 1336, 1340 (Fed. Cir. 2010) (en banc). To fulfill
the written description requirement, a patent owner
“must ‘convey with reasonable clarity to those skilled
in the art that, as of the filing date sought, he or she
was in possession of the invention,’ and demonstrate
that by disclosure in the specification of the patent.”
Carnegie Mellon Univ. v. Hoffmann-La Roche Inc., 541
F.3d 1115, 1122 (Fed. Cir. 2008) (citation omitted)
(quoting Vas-Cath Inc. v. Mahurkar, 935 F.2d 1555,
1563–64 (Fed. Cir. 1991)). That test “requires an
objective inquiry into the four corners of the
specification from the perspective of a person of
ordinary skill in the art.” Ariad, 598 F.3d at 1351.
The question in this case is whether the ’597 patent
demonstrates that the inventor was in possession of
those 2'-methyl-up nucleosides that fall within the
boundaries of the claim (i.e., are effective against
HCV), but are not encompassed by the explicit
formulas or examples provided in the specification.
The parties focus in particular on whether the

27a
specification demonstrates possession of the 2'methyl-up 2'-fluoro-down nucleosides that are the
basis for Gilead’s accused product.
There is no dispute that neither the ’597 patent nor
any of its predecessor applications discloses a 2'methyl-up 2'-fluoro-down nucleoside, including in any
formulas or examples. See J.A. 37102–03 (admission
of Idenix’s inventor). Nor is there any dispute as to
why. Idenix “only came up with the methyl up fluoro
down embodiment a year or so after the application
was filed.” See J.A. 25562 (admission of Idenix’s
counsel). Idenix argues instead that its claims are
directed to the entire genus of 2'-methyl-up
compounds for treating HCV, and are enabled by the
disclosure of a number of examples, without needing
to disclose each species of nucleoside. See Reply Br.
31–32.
Idenix is correct that generally a genus can be
sufficiently disclosed by “either a representative
number of species falling within the scope of the genus
or structural features common to the members of the
genus so that one of skill in the art can visualize or
recognize the members of the genus.” Ariad, 598 F.3d
at 1350 (internal quotation marks omitted). We have
alternatively described this inquiry as “looking for
blaze marks which single out particular trees” in a
forest, rather than simply “pointing to trees.” See
Fujikawa v. Wattanasin, 93 F.3d 1559, 1570 (Fed. Cir.
1996) (quoting In re Ruschig, 379 F.2d 990, 994–95
(CCPA 1967)).
In this case, we hold that the ‘597 patent is invalid
for lack of written description, as it fails to provide
sufficient blaze marks to direct a POSA to the specific

28a
subset of 2'-methyl-up nucleosides that are effective in
treating HCV. The patent provides eighteen positionby-position
formulas
describing
“principal
embodiments” of compounds that may treat HCV. See
generally ‘597 patent col. 5 l. 29–col. 13 l. 42. However,
other
than
generic
language
regarding
“pharmaceutically acceptable salts and prodrugs
thereof” (a category not at issue here), the specification
provides no indication that any nucleosides outside of
those disclosed in its formulas could be effective to
treat HCV—much less any indication as to which of
those undisclosed nucleosides would be effective. See
id. at col. 15 l. 51–col. 16 l. 10. “A written description
of an invention involving a chemical genus, like a
description of a chemical species, ‘requires a precise
definition, such as by structure, formula, [or] chemical
name’ of the claimed subject matter sufficient to
distinguish it from other materials.” Bos. Sci. Corp. v.
Johnson & Johnson, 647 F.3d 1353, 1363 (Fed. Cir.
2011) (quoting Regents of the Univ. of Cal. v. Eli Lilly
& Co., 119 F.3d 1559, 1568 (Fed. Cir. 1997)). The ‘597
patent provides adequate written description for the
compounds within its formulas. The specification,
however, provides no method of distinguishing
effective from ineffective compounds for the
compounds reaching beyond the formulas disclosed in
the ’597 patent.
Idenix argues that it provides “abundant traditional
blazemarks for the claims—working examples,
formulas, data, synthesis routes, and the target.”
Reply Br. 32. Each of these suffer from the same flaw.
They provide lists or examples of supposedly effective
nucleosides, but do not explain what makes them
effective, or why. As a result, a POSA is deprived of

29a
any meaningful guidance into what compounds
beyond the examples and formulas, if any, would
provide the same result. In the absence of that
guidance, the listed examples and formulas cannot
provide adequate written description support for
undisclosed nucleosides that also happens to treat
HCV.
The written description requirement
specifically defends against such attempts to “cover
any compound later actually invented and determined
to fall within the claim’s functional boundaries.” See
Ariad, 598 F.3d at 1353.
We are mindful of Ariad’s caution that written
description does not require “a nucleotide-bynucleotide recitation of the entire genus.” Id. at 1352.
The purpose of that rule is to allow relatively few
representative examples or formulas to support a
claim on a structurally similar genus. See id. It does
not extend to this case, where the specification lists
tens or hundreds of thousands of possible nucleosides,
substituent-by-substituent, with dozens of distinct
stereo-chemical structures, and yet the compound in
question is conspicuously absent.
The absence of 2'-fluoro-down is indeed conspicuous.
Seven of the provided formulas permit 2'-methyl-up.
See, e.g., ‘597 patent col. 6 ll. 5–20 (Formula II), col. 8
ll. 5–20 (Formula V), col. 10 ll. 5–47 (Formulas X and
XI), col. 11 l. 42–col. 12 l. 17 (Formula XVI), col. 12 ll.
23–54 (Formula XVII), col. 13 ll. 5–41 (Formula
XVIII). All seven formulas explicitly list fluorine as a
possibility at other positions, including 2'-up. See, e.g.,
id. at col. 10 ll. 42–47 (listing “fluoro” at 2'-up). Yet not
one of them includes fluorine at 2'-down, despite each
listing more than a dozen possible substituents at that
position. This is true even though the formulas

30a
include every other recited halogen at both positions.
Compare ‘597 patent col. 8 ll. 48–54 (listing “chloro,
bromo, fluoro, iodo” at 2'-up), with col. 8 ll. 55–61
(listing “chlorine, bromine, iodine,” but not fluorine, at
2'-down).
Further, to the extent Idenix argues that, although
not disclosed, a POSA would have known to include
fluorine at 2'-down based on its similarities to other
halogens, that is insufficient for written description.
“[A] description that merely renders the invention
obvious does not satisfy” the written description
requirement. Ariad, 598 F.3d at 1352.
We
therefore
disagree
with
Idenix’s
characterization that “the specification plainly
embraces the use of the [2'-fluoro-down] embodiment.”
Reply Br. 34. In light of the conspicuous absence of
that compound, a POSA would not “visualize or
recognize the members of the genus” as including 2'fluoro-down, and the specification could not
demonstrate to a POSA that the inventor had
possession of that embodiment at the time of filing.
Ariad, 598 F.3d at 1350.
V
For the foregoing reasons, we affirm the district
court’s grant of judgment as a matter of law that the
‘597 patent is invalid for lack of enablement. We
reverse the district court’s denial of judgment as a
matter of law for failure to meet the written
description requirement and hold that the ’597 patent
is invalid for lack of written description as well.

31a
AFFIRMED-IN-PART AND
REVERSED-IN-PART
COSTS
Costs to appellee.

32a
United States Court of Appeals
for the Federal Circuit
__________________________

IDENIX PHARMACEUTICALS LLC,
UNIVERSITA DEGLI STUDI DI CAGLIARI,
Plaintiffs-Appellants
v.
GILEAD SCIENCES INC.,
Defendant-Appellee
__________________________

2018-1691
__________________________

Appeal from the United States District Court for the
District of Delaware in No. 1:14-cv-00846-LPS, Chief
Judge Leonard P. Stark.
__________________________

NEWMAN, Circuit Judge, dissenting.
I respectfully dissent. The court errs in holding that
the specific narrow claims of the ’597 patent are
invalid. The large number of unclaimed chemical
variants in the specification are not described, not
synthesized, and not tested for antiviral activity. It is
incorrect to include these variants in the claims and
then to invalidate the claims because these variants
are not described and not enabled.
The panel majority, overturning the jury verdict,
finds the ’597 claims invalid on the grounds of nonenablement and inadequate description. The majority
finds that there are “billions and billions” of possible
nucleosides in the omnibus specification. On this

33a
reasoning, the majority finds invalid the narrow
claims of the ’597 patent. However, a reasonable jury
could have understood the claims as directed to the
nucleosides that are specifically described and that are
shown to have the claimed antiviral activity. A
reasonable jury could have credited the evidence that
the ’597 claims are for these specific compounds, not
the “billions and billions” of unsynthesized and
unevaluated variants in the specification. It is not
disputed that the specific claimed compounds meet the
requirements of 35 U.S.C. § 112. The jury verdict of
validity must be viewed in light of the evidence and
argument before the jury.
The majority’s holding that validity under section
112 is determined based on whether unclaimed subject
matter is described and enabled, provides a new path
of uncertainty and unreliability of the patent grant. I
respectfully dissent.
I
I write in concern for the majority’s flawed theory of
section 112, whereby the court requires description
and enablement of the unclaimed and unsupported
subject matter, in order to sustain validity of claims to
the supported subject matter. A reasonable jury could
have applied the jury instructions, in light of the
patent document and the testimony of witnesses, to
understand that the claims are for the subject matter
that is produced and described and evaluated for
antiviral activity. On the correct claim construction, a
reasonable jury could have found the claimed subject
matter to be described and enabled.
A reasonable jury could have understood that
subject matter that is unclaimed is irrelevant to

34a
validity under section 112. With all respect to my
colleagues, they err in holding that because “billions
and billions” of nucleosides are within the specification
but not characterized and not evaluated, the claims to
the products that are synthesized and shown to have
antiviral activity are invalid as “indefinite.”
The jury could have found, as witnesses testified,
that the claims are directed to the nucleosides that are
synthesized as shown in the ’597 specification, and
shown to have antiviral efficacy. This is a narrow class
of nucleosides, pictured as set forth in the briefs and
in the majority’s opinion:

Idenix Br. 8; Gilead Br. 8; Maj. Op. at 5.
The ’597 specification is an omnibus disclosure of
eighteen broad “Formulas” of nucleosides—variants
that are untested, uncharacterized, and unclaimed. In
contrast, only the above molecule is included in the
patent Figures that report antiviral data.
The
specification describes Figures 2 and 3 as follows:
FIG. 2 is a line graph of the pharmacokinetics
(plasma concentrations) of β-D-2'-CH 3 -riboG
administered to six Cynomolgus Monkeys over
time after administration.
FIGS. 3a and 3b are line graphs of the
pharmacokinetics (plasma concentrations) of β-D-

35a
2'-CH 3 -riboG administered to Cynomolgus
Monkeys either intravenously (3a) or orally (3b)
over time after administration.
‘597 patent, col. 15, ll. 31–38. Figure 1, captioned
“Chemical Structure of Illustrative Nucleosides,”
presents the structures of eight nucleosides and two
comparative compounds. ‘597 patent, col. 15, ll. 27–30
(“FIAU and Ribavirin, which are used as comparative
examples”). All eight nucleosides have the three OH
groups in the positions and stereochemistry pictured
above, and six of the eight structures in Figure 1 also
have a methyl group in the 2'-up position as required
by all the claims.
The jury was told by Dr. Meier, an expert witness
for Idenix, that for all of the 2'-methyl-up nucleosides
in Figure 1, “all of the compounds have hydroxide at
the 2' down position.” J.A. 37673 at 1859:25–1860:2.
Dr. Secrist, an expert witness for Gilead, testified that
the first four compounds in Figure 1 are β-D-2'-methylribofuranosyl nucleosides, stating “[a]ll of them have a
2' up methyl and a 2' down hydroxyl, yes, and they are
ribonucleoside.” J.A. 37638 at 1721:8–11.
My colleagues err in ruling that the claims cover
“billions” of variants. The ’597 specification recites a
very large number of substituents for nucleosides that
are not synthesized, not characterized, not evaluated,
and not included in the claims. Some of these variants
have been claimed in other patents and applications. 1
1

At least nine additional patents and applications are
reported to claim priority from this Provisional Appli-cation No.
60/206,585, viz. Patent No. 6,914,054 (claiming Formulas V, X,
XI, XVI, XVII, and XVIII); Patent No. 7,169,766 (claiming
Formula XVII); Application No. 10/602,142 (claiming Formulas

36a
However, they are not claimed in the ’597 patent. My
colleagues err in holding that because other
substituents and modifications are mentioned in the
specification, claims that do not include such variants
are invalid on grounds of indefiniteness and lack of
written description.
The broadest claim of the ’597 patent is claim 1:
1. A method for the treatment of a hepatitis C
virus infection, comprising administering an
effective amount of a purine or pyrimidine β-D-2'methyl-ri-bofuranosyl nucleoside or a phosphate
thereof, or a pharmaceutically acceptable salt or
ester thereof.
‘597 patent, col. 142, ll. 63–67. This nucleoside with
pyrimidine base is pictured and labeled in the
specification as follows:

X, XI, and XVII); Patent No. 7,157,441 (claiming Formulas II, X,
XI, XVII); Patent No. 8,299,038 (claiming Formulas II and V);
Application No. 13/623,674 (claiming Formulas X, XI, XVI, XVII,
and XVIII); Patent No. 10,363,265 (claiming Formulas V and X);
Application No. 13/953,687 (claiming Formula XI); Application
No. 16/440,659.
See USPTO’s PAIR database at
http://portal.uspto.gov/pair/PublicPair, tab “Continuity Data.”

37a
’597 patent, col. 142, ll. 43–55. The specification
provides pharmacologic data for the β-D-2'-methylribofuranosyl nucleosides of the claimed structure.
The narrow scope exemplified in the specification
cannot be reconciled with the majority’s count of
“billions and billions,” Maj. Op. at 9; or “hundreds of
millions,” id.; or even “many, many thousands,” id. at
12, of nucleosides covered by the claims.
The jury was instructed that the claims define a
patent’s scope:
The claims are important because it is the words
of the claims that define what a patent covers.
The claims are intended to define, in words, the
boundaries of the invention that constitute the
patent owner’s property rights. The figures and
text in the rest of the patent provide a description
and/or examples of the invention and provide a
context for the claims, but it is the claims that
define the breadth of the patent’s coverage. Each
of the asserted claims must be considered
individually.
J.A. 169; J.A. 37800 at 2068:17–25 (instructing the
jury).
The panel majority discards this instruction, and
reproduces in the majority opinion portions of the
specification that relate to the other “Formulas” that
are pictured in the specification and directed to other
nucleosides, some of which are the subject of
continuation patents and applications. See n.1, ante.
For example, the majority presents the specification
structure designated Formula XVII, which depicts,
with “R” and “X” designations, a large number of
substituents of the molecule:

38a

Maj. Op. at 10–11 (citing ‘597 patent, col. 12, ll. 20–
67). The majority states that the variants for Formula
XVII are “more than 7,000.” Id. at 12. However, a
reasonable jury could have understood, as witnesses
for both sides testified, that the only variants
synthesized and evaluated in the ‘597 patent have the
structure where R1 is H, R9 is OH, R10 is H, R7 is OH,
R6 is CH 3 , and X is oxygen.
The ’597 patent was the subject of expert testimony
throughout the two-week jury trial. The patent was
given to the jury; see J.A. 170 (“[R]efer to the copy of
the ’597 patent that you have been given.”). Following
is a sampling of the expert testimony:
•

•

Q. Is the difference between DNA and RNA
at 2' down, so OH in RNA, the H in DNA, is
that important to a nucleoside chemist in
2000-2001? A. Oh, yes. It is a critical
distinction, of course. J.A. 37543 at 1568:9–
12.
Q. Now, you have depicted the treatment
with an OH down at 2'. Is that correct? A.
Yes. Q. Why did you do that? A. Well, it’s
– number one, you would expect, when
you’re making something – this is in the

39a

•

•

•

2001 time frame, you would expect modified
nucleotides to have that OH down because
you want to be accepted by the machinery
that makes that RNA virus. So you want to
have that 2-down. J.A. 37544 at 1571:1–10.
Q. [Discussing a 1998 publication
concerning the enzymes] If you look at the
end of the paragraph, it concludes with the
statement that “These results indicate that
the HCV enzyme has a strict specificity for
ribonucleoside 5' triphosphates and requires
the 2' and 3'-OH groups.” . . . What does that
mean with respect to this 2' position you and
I have just been talking about? A. Well, as I
have always maintained, the entire
molecule, when you are making a drug, is
absolutely critical. However, in the case of
doing something for RNA, then having this
2' prime, for the reasons I talked about
earlier, that’s what the enzymes use, is
really important. J.A. 37545 at 1574:16–
1575:2.
Q. In the patent, did you see, after reading
it, any data on any other nucleoside that had
something different at 2' down than the OH
known as hydroxyl? A. No. J.A. 37548 at
1588:18–21.
Q. What did these examples teach a skilled
person to put at the 2' down position in a
nucleoside? A. Well, if you are thinking
about effective treatment of HCV, at best
they teach that you would put an OH down
at the 2' along with a methyl up at the 2
prime. J.A. 37548 at 1588:22–1589:1.

40a
•

•

•

•

•

Q. And is that teaching, OH down at 2', is
that consistent or inconsistent with the
conventional wisdom of nucleoside chemists
at the time? A. Well, speaking as a
nucleoside chemist at the time, I would have
expected and certainly not been surprised by
compounds identified that had 2' down
hydroxyls. J.A. 37548 at 1589:4–9.
Q. We talked about this, but . . . is there any
antiviral data to guide the person of skill
amongst the possibilities covered by that 2'Beta-D-methyl-ribofuranosyl nucleoside? A.
No. We heard about it before but there is no
antiviral data in this patent application.
J.A. 37549–50 at 1593:20–1594:1.
Q. And even considering that other data,
does that cover a lot of compounds or only a
few? A. Well, it only covers the four
compounds and they all have the 2' down
OH only at this critical spot, 2' down. J.A.
37550 at 1594:2–5.
Q. Let’s turn to the making of the
compound. What kind of guidance does the
patent provide and what kind of compounds
are actually – or the patent teaches you can
actually make? A. Well, it gives, I’ll say,
standard literature ways to make
nucleosides that have 2' up methyl and a 2'
or maybe even a 2' up alkyl and a 2' down
OH. J.A. 37550 at 1594:6–12.
Q. [Displaying the ‘597 patent] What are we
looking at here, Dr. Secrist, at DDX-721,
which excerpts the patent at column 48,
lines 30 to page [sic] 49, line 5? A. This is

41a
one of two general schemes that are in the
patent, and I won’t go through it other than
to note that you take a starting material,
that you go through a whole series of steps,
and you end up with a nucleoside with a
down OH. J.A. 37550 at 1594:13–21.
• Q. And a 2'-methyl up? A. A 2'-methyl, or
as you can sigh [sic] in ours, it could be
another group up. J.A. 37550 at 1595:16–18.
• Q. What compound does the patent show
being made in relation to the 2' position? A.
Okay. It shows only compounds that have a
2' down hydroxyl group. J.A. 37550 at
1595:12–15.
• Q. Are there any other synthetic schemes,
any other schemes in the patent that show
something different at 2' down? A. No, just
OH. J.A. 37550 at 1595:19–22.
• Q. Does the patent show any of these
compounds being made at R7 other than 2'
OH down? A. No. J.A. 37551 at 1598:10–12.
• Q. So Dr. De Francesco, we were just
talking about your 2003 paper. We were
talking about the phrase . . . Beta-D 2'
methyl ribofuranosyl guanosine, and I think
where we left off was that you were
confirming that that phrasing describes the
structure . . . that’s a methyl up at the 2'
position, OH or hydroxy down at the 2' and
3' position? A. Right. Correct. J.A. 37755 at
2001:19–2002:3.
There’s much more, as the jury was informed
concerning the chemical structure, the specification,

42a
and the claims. The verdict form was explicit as to the
asserted claims and the burden of proof:
[1] Has Gilead proven by clear and convincing
evidence that each of the asserted claims of
the ’597 patent is invalid because the specification
of the ’597 patent does not enable the asserted
claims?
[2] Has Gilead proven by clear and convincing
evidence that each of the asserted claims of
the ’597 patent is invalid because the specification
of the ’597 patent does not contain an adequate
written description of the asserted claims?
J.A. 143. The jury answered “No” to both questions.
Id.
The panel majority now discards the jury verdict,
stating “the jury was not free to adopt a number lower
than the many, many thousands of configurations
identified as ‘principal embodiment[s]’ in the patent
itself.”
Maj. Op. at 12 (alteration in original).
However, the jury was not free to adopt an incorrect
view of the patent, for almost all of the embodiments
that the specification calls “principal embodiments”
are for Formulas for which no synthesis and no
evaluation data are provided in the ’597 specification.
The panel majority makes no mention of the relation
of the ’597 claims to the Figures, the examples, and the
data in the specification, holding only that the claims
are invalid based on “billions and billions” of
unclaimed nucleosides. Gilead’s expert Dr. Secrist
testified that the preferred subembodiments of
Formula XVII “ends up with a total of five
compounds”:

43a
Q. To be fair, the patent does boil these formulas
down a little bit down into something called
preferred embodiments.
Is that true?
A.
Absolutely, it does.
Q. Can you explain, it is a term we haven’t heard
before, can you explain to the jury what your
understanding of a preferred embodiment is? A.
Well, you take—I will do my best. If you have this
many compounds that you are starting with, a
preferred embodiment would narrow it down by
some means, usually by looking at data, to this
many, in a more preferred embodiment similarly
by some means, usually data would get down to
this number of compounds. So you would go from
here to here with preferred embodiments, usually
based on seeing the data for compounds that are
in these embodiments. . . .
Q. If we go to [the ’597 patent]. What are we
looking at here, Dr. Secrist, from Column 32 of
the patent, lines 42 to 59? A. On the right is the
same structures, Roman Numeral XVII that we
have already seen. Now we are looking at what’s
up and what’s down at the 2' position. . . . I have
suggested it is an important position. It is. What
they show is a methyl up, you can see it, R6 is
methyl in all cases and a hydroxyl down in all
cases.
This ends up with a total of five
compounds.
J.A. 37554 at 1612:4–1613:7.
A patent specification must “contain a written
description of the invention, and of the manner and
process of making and using it, in such full, clear,
concise, and exact terms as to enable any person

44a
skilled in the art to which it pertains . . . to make and
use the same.” 35 U.S.C. § 112 para. 1. It was
undisputed that the ’597 specification did not describe
and enable products other than those whose synthesis
and antiviral properties were shown in the
specification, all of which had the narrow formula of
three OH groups and a CH 3 group as pictured. A
reasonable jury could have so viewed the claims.
“Courts are not free to reweigh the evidence and set
aside the jury verdict merely because the jury could
have drawn different inferences or conclusions or
because judges feel that other results are more
reasonable.” Tennant v. Peoria & P.U. Ry. Co., 321
U.S. 29, 35 (1944).
Based on the evidence, a reasonable jury could have
found that the claims are directed to the subject
matter that was described and evaluated. “Our
appellate role ends when there is shown to be
substantial evidence, on the record as a whole, as could
have been accepted by a reasonable jury as probative
of the issue.” Nat’l Presto Indus., Inc. v. West Bend
Co., 76 F.3d 1185, 1192 (Fed. Cir. 1996).
My
colleagues err in holding that the ’597 claims are
invalid unless the billons or millions or thousands of
variants are synthesized and shown to have antiviral
activity. The evidence could reasonably support a jury
finding that the claims are of the scope that is
described and enabled in conformity with section 112.
From my colleagues’ contrary ruling, I respectfully
dissent.
II
The basis of this litigation is Idenix’s complaint that
the ‘597 patent is infringed by the Gilead product

45a
sofosbuvir, which has a fluorine substituent in the 2'down position, as follows:

The issue in litigation was whether this product
infringes the ’597 claims. Gilead presented extensive
testimony and argument on this question.
For
example, there was testimony that this product could
not be made by the procedures in the ’597
specification. There was testimony that an Idenix
scientist had tried and failed to synthesize this
fluorine-containing molecule.
J.A. 37402–03 at
1178:2–1179:20. A witness testified that attaching
fluorine to a nucleoside is “very tricky,” for “it could
lead to compounds that explode.” J.A. 37279 at
836:12–837:1. There was testimony that it was known
that 2'-F nucleosides were toxic. J.A. 37196 at 696:6–
10, J.A. 37286 at 866:5–14, J.A. 37327 at 1030:7–22.
There was testimony about stereochemical doubts that
this molecule could be produced. J.A. 37314 at
976:22–977:13, J.A. 37319 at 998:6–999:23.
It is pointed out that fluorine is conspicuously
omitted from the list of halogen substituents at 2'down in several of the general “Formulas” in the ’597
specification. Gilead Br. at 68–69 (citing ’597 patent,
col. 10, ll. 42–55, col. 12, ll. 5–12, col. 12, ll. 55–61). It

46a
is pointed out that Idenix lost an interference contest
on this specific molecule. Gilead Br. at 1 (citing Storer
v. Clark, 860 F.3d 1340 (Fed. Cir. 2017)).
The panel majority states that this aspect was “not
advanced by Idenix at trial or before us.” Maj. Op. at
7–8 n.3. However, Gilead did advance this aspect at
trial, and argues it on this appeal. At the trial Gilead
presented evidence with respect to the 2'-down
fluorine substituent, as I have outlined, and on appeal
Gilead devotes a substantial portion of its brief to the
argument that its fluorinated compound is not within
the scope of correctly construed claims. The issue was
not waived, although the Supreme Court has
recognized that even issues that were waived may be
considered on appeal. The Court has explained:
Nor did prudence oblige the Court of Appeals to
treat the unasserted argument . . . as having been
waived. . . . [A] court may consider an issue
“antecedent to . . . and ultimately dispositive of”
the dispute before it, even an issue the parties fail
to identify and brief. . . . [A] court “need not
render judgment on the basis of a rule of law . . .
simply because the parties agree upon it.”
U.S. Nat’l Bank of Or. v. Indep. Ins. Agents of Am., 508
U.S. 439, 447 (1993) (quoting Arcadia v. Ohio Power
Co., 498 U.S. 73, 77 (1990) and United States v. Burke,
504 U.S. 229, 246 (1992) (Scalia, J., concurring in
judgment)).
The judicial responsibility and authority are to
assure that the correct law is applied. Contrary to my
colleagues’ position, the Court admonishes that:
Rules of practice and procedure are devised to
promote the ends of justice, not to defeat them. A

47a
rigid and undeviating judicially declared practice
under which courts of review would invariably
and under all circumstances decline to consider
all questions which had not previously been
specifically urged would be out of harmony with
this policy. Orderly rules of procedure do not
require sacrifice of the rules of fundamental
justice.
Hormel v. Helvering, 312 U.S. 552, 557 (1941); see
Singleton v. Wulff, 428 U.S. 106, 121 (1976) (“The
matter of what questions may be taken up and
resolved for the first time on appeal is one left
primarily to the discretion of the courts of appeals, to
be exercised on the facts of individual cases. We
announce no general rule.”).
The Federal Circuit has so recognized. See Wilson v.
Principi, 391 F.3d 1203, 1211 (Fed. Cir. 2004) (“The
Court stated that such instances should be based on
‘particular circumstances which will prompt a
reviewing or appellate court, where injustice might
otherwise result, to consider questions of law which
were neither pressed nor passed upon . . . below.’ The
matter is one left largely to the discretion of the court
of appeals.” (quoting Hormel, 312 U.S. at 557)). On
appeal, our responsibility is to the law, and just
conduct of the appeal.
There was substantial evidence that Gilead’s
fluorinated product is not within the scope of the
claims as they reasonably could have been viewed by
the jury. The jury verdict of validity under section 112
is in accordance with law and supported by substantial
evidence. I would decide this appeal on the ground
that the claims, correctly construed, are valid and not

48a
infringed. From my colleagues’ contrary rulings, I
respectfully dissent.

49a

APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
IDENIX PHARMACEUTICALS
LLC and UNIVERSITA DEGLI
STUDI DI CAGLIARI
Plaintiffs,
v.

C.A. No. 14-846LPS

GILEAD SCIENCES, INC.,
Defendant.
FINAL JUDGMENT
This action came before the Court for trial beginning
December 5, 2016, before a duly impaneled and sworn
jury. The jury rendered a verdict on December 15,
2016 in favor of Plaintiffs Idenix Pharmaceuticals LLC
and Universita Degli Studi di Cagliari (collectively,
“Idenix”). (D.I. 517)
On January 26, 2017, the Court entered a Judgment
Following Jury Verdict in Idenix’s favor and against
Gilead Sciences, Inc. (“Gilead”) on its claims of
infringement, willful infringement, validity, and
damages with respect to claims 1, 2, 4-7, 9-10, 16, 19,
23, and 28-31 (the “asserted claims”) of U.S. Patent
No. 7,608,597 (“the ’597 patent”). (D.I. 533) The Court
likewise entered judgment in Idenix’s favor and
against Gilead for damages in the amount of
$2,540,000,000.00 for Gilead’s infringement of the ’597
patent. (Id.) The Court also entered judgment

50a
dismissing all claims and counterclaims with respect
to U.S. Patent No. 6,914,054 (“the ‘054 patent”). (Id.)
On February 23, 2017, Gilead filed a motion for
judgment as a matter of law or, in the alternative, a
new trial on the issues of invalidity, willful
infringement, and damages (D.I. 535), and Idenix filed
a motion for enhanced damages, attorneys’ fees, prejudgment interest, and an·ongoing royalty (D.I. 538).
On May 30, 2017, the Court stayed consideration of
Idenix’s motion for an ongoing royalty, by stipulation
of the parties. (D.I. 575)
On September 22, 2017, the Court issued an opinion
(D.I. 587) and order (D.I. 588) denying Idenix’s motion
for enhanced damages and attorneys’ fees, and
granting Idenix’s motion for pre-judgment interest.
On February 16, 2018, the Court issued an opinion
(D.I. 591) and order (D.I. 592) that Gilead’s “motion for
judgment as a matter of law (D.I. 535) is GRANTED
IN PART, as U.S. Patent No. 7,608,597 is invalid for
lack of enablement, and in all other respects is
DENIED” (D.I. 592).
Therefore, pursuant to Federal Rule of Civil
Procedure 50, 54, and 58, FINAL JUDGMENT is
hereby entered in this matter as follows:
IT IS ORDERED AND ADJUDGED that the
judgment in favor of Idenix on its claims related to
the ’597 patent and on damages, as entered in the
January 26, 2017 Judgment Following Jury Verdict, is
VACATED as moot.
IT IS ORDERED AND ADJUDGED that final
judgment be and hereby is entered in favor of Gilead
and against Idenix on Gilead’s counterclaim that the

51a
asserted claims of the ’597 Patent are invalid for lack
of enablement.
IT IS ORDERED AND ADJUDGED that claims 1,
2, 4-7, 9-10, 16, 19, 23, and 28-31 of the ’597 patent are
invalid for lack of enablement.
IT IS ORDERED AND ADJUDGED that Gilead’s
counterclaim that the unasserted claims of the ’597
patent are invalid is DISMISSED without prejudice.
IT IS ORDERED AND ADJUDGED that the
plaintiff, Idenix, take nothing by way of its complaint.
IT IS ORDERED AND ADJUDGED that Idenix’s
claims against Gilead on the ’597 patent are
DISMISSED without prejudice, and any further
proceedings with respect to these claims, in this case
or any future case, will be dependent on all applicable
legal principles, including any remand order from the
Court of Appeals and collateral estoppel.
IT IS ORDERED AND ADJUDGED that the
September 22, 2017 order granting Idenix’s motion for
pre-judgement interest is VACATED as moot.
IT IS ORDERED AND ADJUDGED that Idenix’s
February 23, 2017 motion for ongoing damages is
DENIED as moot.
IT IS ORDERED AND ADJUDGED that all claims
and counterclaims with respect to direct and indirect
infringement of the ‘054 patent are DISMISSED with
prejudice in view of Idenix’s filing of a mutually
acceptable covenant not to sue.

52a
Dated: March 14, 2018
/s/Honorable Leonard P. Stark
HONORABLE LEONARD P. STARK
UNITED STATES DISTRICT JUDGE

/s/Deputy Clerk
(By) Deputy Clerk

53a

APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
IDENIX PHARMACEUTICALS
LLC and UNIVERSITA DEGLI
STUDI di CAGLIARI,
Plaintiffs
v.

C.A. No. 14-846LPS

GILEAD SCIENCES, INC.,
Defendant.
Steven J. Balick, John G. Day, and Andrew C. Mayo,
ASHBY & GEDDES, Wilmington, DE
Calvin P. Griffith, Ryan B. McCrum, Michael S.
Weinstein, and Bradley W. Harrison, JONES DAY,
Cleveland, OH
Anthony M. Insogna and John D. Kinton, JONES
DAY, San Diego, CA
John M. Michalik and Lisa L. Furby, JONES DAY,
Chicago, IL
Stephanie E. Parker, JONES DAY, Atlanta, GA
Jennifer L. Swize, JONES DAY, Washington, DC
Attorneys for Plaintiffs
Martina Tyreus Hufnal, Douglas E. McCann,
Elizabeth M. Flanagan, Joseph B. Warden, and
Santosh V. Coutinho, FISH & RICHARDSON P.C.,
Wilmington, DE
Frank E. Scherkenbach and Jenny Shmuel, FISH &

54a
RICHARDSON P.C., Boston, MA
W. Chad Shear, FISH & RICHARDSON P.C., San
Diego, CA
Jonathan E. Singer and Tasha M. Francis, FISH &
RICHARDSON P.C., Minneapolis, MN
Corrin N. Drakulich, FISH & RICHARDSON P.C.,
Atlanta, GA
Attorneys for Defendant

OPINION

February 16, 2018
Wilmington, Delaware

55a
STARK, U.S. District Judge:
In this patent infringement case involving
groundbreaking work by both parties in the field of
treatments for the Hepatitis C virus (“HCV”) infection,
Plaintiffs Idenix Pharmaceuticals LLC and Universita
Degli Studi di Cagliari (together, “Idenix”) sued
Defendant Gilead Sciences, Inc. (“Gilead”). Prior to
trial, Gilead stipulated that, under the Court’s claim
construction, its accused products, Harvoni and
Sovaldi, infringe the asserted claims of Idenix’s
patent, U.S. Patent No. 7,608,597 (“‘597 patent”). 1
(D.I. 452 at 8 n.2) After a two week-trial in December
2016, a jury found that Gilead failed to prove that the
asserted claims are invalid and awarded Idenix $2.54
billion in damages. (D.I. 518)
Gilead now renews its motion for judgment as a
matter of law (“JMOL”) (D.I. 535), which the Court
took under advisement during trial and later denied
as moot and with the opportunity to renew following
entry of judgment (D.I. 533). In its JMOL motion,
Gilead urges the Court to set aside the jury’s verdict
on the basis that Idenix’s asserted patent claims are
invalid for failure to meet 35 U.S.C. § 112’s written
description and enablement requirements. Gilead
alternatively asks the Court to reduce the jury’s
damages award as unsupported by the evidence.
The Court addresses each of Gilead’s JMOL
arguments in turn, beginning with damages and then

The ’597 patent is entitled “Methods and Compositions for
Treating Hepatitis C Virus.” It was issued on October 27, 2009.
(D.I. Ex. B)
1

56a
moving on to validity. 2 For the reasons that follow, the
Court finds that, while judgment as a matter of law is
improper on damages and written description, the ’597
patent is invalid for lack of enablement. Accordingly,
the Court will grant in part and deny in part Gilead’s
motion.
I.

BACKGROUND

HCV is a serious chronic liver disease that affects
millions of people around the world. Cirrhosis and
liver cancer caused by HCV infection claim thousands
of lives every year in the United States alone. Until
recently, the best treatment available for HCV
infection involved use of interferon and ribavirin. In
addition to the significant side-effects of interferon
treatment, this course of treatment often failed to cure
the disease. (See generally ’597 patent; Carter Tr. at
770–71; McHutchison Tr. at 1234–38)
HCV is a member of the Hepacivirus genus and
Flaviviridae family. Because its genetic material
consists of ribonucleic acid, it is referred to as an RNA
virus. Throughout the 1990s and into the new
millennium, scientists were carrying out significant
research on the use of modified nucleosides as
2 Gilead challenged the sufficiency of Idenix’s evidence of
willfulness during trial (see Trial Transcript (D.I. 539–50) (“Tr.”)
at 2029, 2043; D.I. 509), but did not renew this challenge in its
post-judgment motion (D.I. 536). While Gilead summarily
references in a footnote of its brief that it is renewing this
challenge, and purports (improperly) to incorporate by reference
its prior briefing on this issue (see D.I. 536 at 24–25 nn.14–16),
under this Court’s practice this was insufficient to renew the
challenge (for reasons including that, if permitted, it would evade
the Court’s page limits on briefs). Hence, no challenge to the
sufficiency of Idenix’s evidence of willfulness is before the Court.

57a
antiviral agents. Some antivirals are developed as
chain terminators, which bind to (and block off) the
enzymes that allow the target virus to replicate. HCV
was among the viruses being targeted for a possible
cure that would act directly against the virus itself.
(See generally Sommadossi Tr. at 365–74;
McHutchison Tr. at 1239–40)
In 2000, Idenix discovered an important
modification and filed a provisional patent application
at the United States Patent and Trademark Office
(“PTO”). (See Provisional application No. 60/206,585,
filed May 23, 2000 (PX311)) Idenix’s work addressed
the placement of a methyl group (CH 3 ) at the
nucleoside’s 2' (pronounced “two prime”) up position.
The application eventually led to, among others, U.S.
Patent Nos. 6,914,054 3 (“’054 patent”) and the ’597
patent.
Around the same time, a company called
Pharmasset was pursuing similar research.
Pharmasset was eventually acquired by Gilead. It
worked on modified nucleosides that, like Idenix’s,
included a methyl group at the 2' up position.
Pharmasset’s work also involved placing a fluorine
atom at the 2' down position. This compound — 2'methyl up 2'-fluoro down — led to the groundbreaking
“miracle” treatment that has cured HCV for millions
who are afflicted with it, without the debilitating side
effects that resulted from interferon treatments, and
has produced billions of dollars in revenue for Gilead.
Gilead named its drug containing 2' methyl up 2'
The ’054 patent is entitled “Methods and Compositions for
Treating Hepatitis C Virus.” It was issued on July 5, 2005. (D.I.
1 Ex. A)
3

58a
fluoro down — which acts on HCV’s NS5B polymerase
— sofosbuvir, which Gilead markets under the trade
name Sovaldi. Gilead also markets a combination of
sofosbuvir and ledipasvir, which also inhibits the
virus’s NS5A protein activity, under the trade name
Harvoni. (See generally McHutchison Tr. at 1238–70)
Given the importance of these medical
breakthroughs, as well as the massive revenues
Gilead has earned, it is perhaps unsurprising that
Idenix and Gilead have for years been fighting patent
disputes against one another all around the world.
The instant suit began in 2013, when Idenix sued
Gilead for infringement of the ’054 and ’597 patents in
the United States District Court for the District of
Massachusetts. (See generally D.I. 1) The case was
later transferred to this Court. (See D.I. 39)
The parties engaged in extensive discovery and the
Court construed the relevant disputed claim terms.
(See D.I. 237) On June 1, 2016, Gilead moved for
summary judgment on several issues, including lack
of written description in both the ’054 and ’597
patents. (See D.I. 287) The Court denied the motion.
(See D.I. 367) Among the Court’s reasons for denying
summary judgment based on lack of written
description was that there remained unresolved claim
construction disputes.
The Court ordered
supplemental claim construction briefing, held a
supplemental claim construction hearing, construed
two additional disputed claim terms, and, on
November 16, 2016, denied Gilead’s renewed motion
for summary judgment of invalidity due to lack of
written description. (See D.I. 371, 410, 447)

59a
Thereafter, as the parties prepared for trial, Gilead
stipulated to infringement of the ’597 patent based on
the Court’s claim constructions, and Idenix dropped
the ’054 patent from the case. (D.I. 452 at 4–5, 8 n.2)
The parties proceeded to trial on willfulness, damages,
and invalidity with respect to several claims of the ’597
patent. (See id. at 4–5)
The trial lasted nine days. The parties called a total
of 27 witnesses, including four experts. Idenix’s expert
witnesses included Dr. Chris Meier, a professor of
organic chemistry, and Dr. Raffaele De Francesco, a
virologist. Gilead’s expert witnesses included Dr.
John Secrist, a medicinal chemist, and Dr. Christoph
Seeger, a virologist. The parties also moved 179
exhibits into evidence. (See D.I. 586 (“Arg. Tr.”) at 34)
During trial, both parties moved for judgment as a
matter of law (see D.I. 509, 514), which the Court took
under advisement (Tr. at 2043). The jury then
returned a verdict finding that Gilead’s infringement
was willful, that Gilead had failed to prove the patent
claims are invalid, and that Idenix is entitled to $2.54
billion in damages. (See D.I. 518)
The Court entered judgment on the verdict. (D.I.
533) Thereafter, both parties filed post-trial motions.
Idenix’s motion — which is addressed in a separate
Opinion (D.I. 587) — sought enhanced damages for
Gilead’s willful infringement, a higher ongoing royalty
than the royalty on which the damages for past
infringement were based, an award of attorney fees,
and prejudgment interest at the prime rate. (D.I. 538)
Gilead’s motion, which is addressed here, asks the
Court to find the ’597 patent invalid for lack of
enablement and/or written description. Gilead also

60a
contends that Idenix presented a legally insufficient
damages case and seeks remittitur to a damages
figure of no greater than $380 million. (D.I. 535 at 1)
Alternatively, Gilead seeks a new trial. 4
After the parties completed their principal briefing
on Gilead’s motion (see D.I. 536, 554, 565), the parties
submitted several letters notifying the Court of
subsequent authority (see D.I. 570, 572, 576–79, 583–
84).
At the Court’s direction, the parties also
submitted letter briefs addressing the impact of two of
this Court’s recent decisions in other cases finding
patents invalid due to lack of enablement. (See D.I.
581, 582) The Court heard extensive argument during
a hearing on September 7, 2017. (See Arg. Tr.)
On September 22, 2017, the Court issued its
Opinion on Idenix’s motion, denying Idenix’s request
to enhance damages for willful infringement as well as
its request to declare this case exceptional and award
Idenix attorney fees. (D.I. 587 at 3–17) The Court
granted Idenix’s request that the pre-judgment
interest it was being awarded be compounded at 3.25
– 3.75 % (prime rate) instead of 0.10 – 0.14 % (T-bill
rate). (Id. at 17–18) The Court expressly stated that
its rulings on Idenix’s motion were based on the
assumption — which it emphasized was by no means
a ruling — that Gilead’s pending motion would be
denied in full. (See id. at 2 n.4)

Gilead’s motion also seeks severance and a stay of “any
ongoing royalty claim.” (D.I. 536 at 25) This request is unripe,
in light of the parties’ joint request to stay their disputes relating
to ongoing royalties. (See D.I. 574 at 1; see also D.I. 575 (granting
“parties’ joint request to stay”))
4

61a
The Court now turns to the issues raised in Gilead’s
motion.
II.

LEGAL STANDARDS
A.

Judgment as a Matter of Law

Judgment as a matter of law is appropriate if “the
court finds that a reasonable jury would not have a
legally sufficient evidentiary basis to find for [a] party”
on an issue. Fed. R. Civ. P. 50(a)(1). “Entry of
judgment as a matter of law is a sparingly invoked
remedy,” one “granted only if, viewing the evidence in
the light most favorable to the nonmovant and giving
it the advantage of every fair and reasonable
inference, there is insufficient evidence from which a
jury reasonably could find liability.” Marra v. Phila.
Hous. Auth., 497 F.3d 286, 300 (3d Cir. 2007) (internal
quotation marks omitted).
To prevail on a renewed motion for judgment as a
matter of law following a jury trial, the moving party
“must show that the jury’s findings, presumed or
express, are not supported by substantial evidence or,
if they were, that the legal conclusions implied [by] the
jury’s verdict cannot in law be supported by those
findings.” Pannu v. Iolab Corp., 155 F.3d 1344, 1348
(Fed. Cir. 1998) (internal quotation marks omitted).
“‘Substantial’ evidence is such relevant evidence from
the record taken as a whole as might be accepted by a
reasonable mind as adequate to support the finding
under review.” Perkin−Elmer Corp. v. Computervision
Corp., 732 F.2d 888, 893 (Fed. Cir. 1984).
In assessing the sufficiency of the evidence, the
Court must give the non-moving party, “as [the]
verdict winner, the benefit of all logical inferences that
could be drawn from the evidence presented, resolve

62a
all conflicts in the evidence in his favor, and in general,
view the record in the light most favorable to him.”
Williamson v. Consol. Rail Corp., 926 F.2d 1344, 1348
(3d Cir. 1991); see also Perkin−Elmer Corp., 732 F.2d
at 893. The Court may not assess the credibility of
witnesses nor “substitute its choice for that of the jury
between conflicting elements of the evidence.”
Perkin−Elmer Corp., 732 F.2d at 893. Rather, the
Court must determine whether the evidence
reasonably supports the jury’s verdict. See Dawn
Equip. Co. v. Ky. Farms Inc., 140 F.3d 1009, 1014 (Fed.
Cir. 1998); Gomez v. Allegheny Health Servs. Inc., 71
F.3d 1079, 1083 (3d Cir. 1995) (describing standard as
“whether there is evidence upon which a reasonable
jury could properly have found its verdict”); 9B Wright
& Miller, Federal Practice & Procedure § 2524 (3d ed.
2008) (“The question is not whether there is literally
no evidence supporting the party against whom the
motion is directed but whether there is evidence upon
which the jury properly could find a verdict for that
party.”).
B.

New Trial

Federal Rule of Civil Procedure 59(a) provides in
pertinent part, “[t]he court may, on motion, grant a
new trial on all or some of the issues — and to any
party — as follows: . . . after a jury trial, for any reason
for which a new trial has heretofore been granted in
an action at law in federal court.” New trials are
commonly granted where “the jury’s verdict is against
the clear weight of the evidence, and a new trial must
be granted to prevent a miscarriage of justice,” where
“newly-discovered evidence exists that would likely
alter the outcome of the trial,” where “improper
conduct by an attorney or the court unfairly influenced

63a
the verdict,” or where the jury’s verdict was “facially
inconsistent.” Zarow−Smith v. N.J Transit Rail
Operations, 953 F. Supp. 581, 584–85 (D.N.J. 1997)
(internal citations omitted).
The decision to grant or deny a new trial is
committed to the sound discretion of the district court.
See Allied Chem. Corp. v. Daiflon, Inc., 449 U.S. 33, 36
(1980); Olefins Trading, Inc. v. Han Yang Chem Corp.,
9 F.3d 282, 289 (3d Cir. 1993) (reviewing “district
court’s grant or denial of a new trial motion” under
“abuse of discretion” standard).
Although the
standard for granting a new trial is less rigorous than
the standard for granting judgment as a matter of law
— in that the Court need not view the evidence in the
light most favorable to the verdict winner — ordinarily
a new trial should only be granted “where a
miscarriage of justice would result if the verdict were
to stand,” the verdict “cries out to be overturned,” or
the verdict “shocks [the] conscience.” Williamson, 926
F.2d at 1352–53.
III. DAMAGES
With respect to damages, Gilead requests judgment
as a matter of law, remittitur of the jury’s damage
award — to an amount not to exceed $380 million,
which was the figure Gilead’s expert, Dr. Putnam,
testified was the maximum fully-paid-up royalty for
the life of the patent that Gilead could owe Idenix —
or a new trial. Gilead contends that Idenix’s damages
presentation was fatally deficient in two respects.
First, Idenix’s damages expert, Andrew Carter, failed
to establish that the patent license agreements on
which he relied were sufficiently comparable. Second,
Carter and Idenix’s damages case violated the Entire

64a
Market Value Rule (“EMVR”). The Court disagrees
with Gilead.
A.

Applicable Law

Under 35 U.S.C. § 284, patentees are entitled to
damages “adequate to compensate for the
infringement, but in no event less than a reasonable
royalty.”
Under the “hypothetical negotiation”
approach to calculating a reasonable royalty, the
finder of fact “attempts to ascertain the royalty upon
which the parties would have agreed had they
successfully negotiated an agreement just before
infringement began.” Asetek Danmark A/S v. CMI
USA Inc., 852 F.3d 1352, 1362 (Fed. Cir. 2017). For
purposes of this calculation, the negotiating parties
are assumed to carry a mutual understanding that the
asserted patent is valid and infringed. See Lucent
Techs., Inc. v. Gateway, Inc., 580 F.3d 1301, 1325 (Fed.
Cir. 2009).
In litigating this issue, parties often point to “[t]he
rates paid by the licensee for the use of other patents
comparable to the patent in suit.” Georgia−Pacific
Corp. v. US. Plywood Corp., 318 F. Supp. 1116, 1120
(S.D.N.Y. 1970). The “licenses relied upon” must be
“sufficiently comparable to the hypothetical license at
issue.” Lucent, 580 F.3d at 1325. The comparability
analysis must account for relevant “technological and
economic differences.”
Wordtech Sys., Inc. v.
Integrated Networks Solutions, Inc., 609 F.3d 1308,
1320 (Fed. Cir. 2010) (internal quotation marks and
citation omitted).
“[A]lleging a loose or vague
comparability between different technologies or
licenses does not suffice.” LaserDynamics, Inc. v.

65a
Quanta Computer, Inc., 694 F.3d 51, 79 (Fed. Cir.
2012).
To prevail on its JMOL, Gilead must show that the
jury’s damages award “is, in view of all of the
evidence . . . so outrageously high . . . as to be
unsupportable as an estimation of a reasonable
royalty.” Spectralytics, Inc. v. Cordis Corp., 649 F.3d
1336, 1345 (Fed. Cir. 2011). In evaluating Gilead’s
motion, the Court must remain mindful that “a
reasonable royalty analysis necessarily involves an
element of approximation and uncertainty.”
Ironworks Patents, LLC v. Apple, Inc., 255 F. Supp. 3d
513, 528 (D. Del. 2017) (internal quotation marks
omitted).
B.

Comparability

At trial, Idenix sought (and the jury awarded) a 10%
royalty on net sales of Gilead’s Harvoni and Sovaldi
products. During his testimony, Carter supported this
royalty rate by pointing to two “Roche licenses” — one
between Pharmasset and Roche, and another between
Merck (which is now Idenix’s parent company) and
Roche. (See PX1132; PX1606; Carter Tr. 742–44)
Gilead argues that Carter’s comparability analysis
was improper because he failed to “account[] for the
technological and economic differences between each
agreement and the hypothetical license” Idenix and
Gilead are presumed to have negotiated with respect
to Gilead’s use of Idenix’s ’597 patent. (D.I. 536 at 18)
More specifically, Gilead asserts that Carter did not:
(i) account for the Roche licenses’ inclusion of a patent
portfolio, as opposed to the single patent that would
have been involved in the hypothetical negotiation;
(ii) specifically identify the licensed patents;

66a
(iii) properly address the relative timing and risks
involved (e.g., whether FDA approval had been
obtained); and (iv) account for the inclusion in the
Roche licenses of non-patent assets. (See id. at 18–19)
Idenix responds that the Roche licenses were both
“entered into before the 2013 hypothetical negotiation
and relatively close in time” to the date of the
hypothetical negotiation between Idenix and Gilead.
(D.I. 554 at 19–22) The Roche licenses also both
involved similar technology to that covered by the ’597
patent and “similarly situated parties with similar
bargaining power.” (Id.) Further, in Idenix’s view, the
distinctions Gilead points to — such as the number of
patents involved, timing and risks, and inclusion of
non-patent assets — were all presented to the jury,
and substantial evidence supports the jury’s implicit
decision to credit Carter’s comparability opinion. (See
id.) Nor, according to Idenix, has Gilead identified any
basis to conclude as a matter of law that the Roche
licenses are not comparable to the hypothetical license
Idenix and Gilead would have negotiated. (See id.)
While Gilead has leveled powerful factual attacks
on Carter’s analysis, they are just that: factual
attacks. None of them, individually or collectively,
renders Carter’s analysis flawed as a matter of law.
See ActiveVideo Networks, Inc. v. Verizon Commc’ns,
Inc., 694 F.3d 1312, 1333 (Fed. Cir. 2012) (affirming
denial of motion to strike damages expert, stating the
“degree of comparability of [certain] license
agreements as well as any failure on the part of [the]
expert to control for certain variables are factual
issues best addressed by cross examination and not by
exclusion.”). The jury was free to accept Carter’s
opinion that the Roche licenses were technologically

67a
and otherwise comparable to the hypothetical license,
notwithstanding hearing Gilead’s (and its expert’s)
strong critiques of that opinion. The jury’s implicit
finding is supported by substantial evidence, including
Carter’s own testimony on each of the topics on which
Gilead’s motion is based. (See, e.g., Carter Tr. at 779–
80 (portfolio), 788–91 (identifying specific patents),
785–87 (timing and risks, including FDA approval),
800–01, 809–13 (non-patent assets)) 5 Furthermore,
Carter supported his 10% royalty rate with testimony
about several Georgia-Pacific factors. (See Carter Tr.
at 752–57)
While Gilead is correct that comparability “cannot
focus just on the covered product,” but must also
“describe the relationship between the patented
technology licensed therein and the licensee’s
products” (D.I. 536 at 19 n.11) (quoting Uniloc USA,
Inc. v. Microsoft Corp., 632 F.3d 1292, 1316 (Fed. Cir.
2011) (emphasis added)), substantial evidence was
present to support a finding of sufficient comparability
between the ’597 patent’s technology and Gilead’s
accused products. Moreover, the jury could reasonably
have found comparability between the technology
To the extent Gilead is arguing that a damages expert is
prohibited from opining that the reasonable royalty can be the
same regardless of the number of patents that are the subject of
the hypothetical license (see Arg. Tr. at 104–11), the Court
disagrees. Carter’s opinion that Idenix and Gilead would have
agreed to the same royalty rate for a license to just the ’597 patent
as they would have for a license to the ’597 patent as well as other
patents, while certainly vulnerable to factual attack, is not an
improper opinion as a matter of law. Carter’s testimony that in
real-world negotiations the parties ignore the number of patents
was properly admitted and without (at trial) any objection. (See
Carter Tr. at 790–91)
5

68a
involved in the hypothetical license — a license to
compounds useful in the treatment of HCV — and the
technology involved in the Roche licenses — one
between Pharmasset and Roche and another between
Merck (Idenix’s parent company now) and Roche. (See
PX1132; PX1606)
In sum, comparability issues do not provide a basis
for granting Gilead any relief.
C.

Entire Market Value Rule

Infringement damages must “‘separate or apportion
the defendant’s profits and the patentee’s damages
between the patented feature and the unpatented
features.” LaserDynamics, 694 F.3d at 67 (quoting
Garretson v. Clark, 111 U.S. 120, 121 (1884)). For that
reason, reasonable royalties must generally “be based
not on the entire product, but instead on the smallest
salable patent-practicing unit.” Id. (internal quotation
marks omitted). The Entire Market Value Rule
(“EMVR”) allows for an exception to this general
requirement when the patentee shows that “the
patented feature drives the demand for an entire
multi-component product,” in which case the patentee
may obtain damages “as a percentage of revenues or
profits attributable to the entire product.” Id.
Gilead contends that Carter’s use of a royalty base
consisting of “Gilead’s adjusted net sales” of Harvoni
and Sovaldi was improper and violated the EMVR.
Gilead’s position is based on its contention that Carter
failed to account for, among other things, Gilead’s
substantial contribution of placing fluorine at the 2'
down position as well as Gilead’s development of the

69a
prodrug 6 necessary for the accused
administration. (D.I. 536 at 20–24)

product’s

Idenix counters that the EMVR does not apply in
cases where, as here, the accused products are
pharmaceuticals “covered in full by the claim” and the
“active ingredient . . . provides the claimed therapeutic
benefit.” (D.I. 554 at 23) For this proposition, Idenix
cites to AstraZeneca AB v. Apotex Corp., 782 F.3d 1324
(Fed. Cir. 2015). AstraZeneca involved a branded
pharmaceutical patentee’s suit against a generic
competitor. The patent on the drug’s active ingredient
had expired, but the plaintiff still held “formulation
patents claim[ing] three key elements — the drug core,
the enteric coating, and the subcoating,” which
encompassed the “complete omeprazole product”
accused of infringement. Id. at 1338. The generic
manufacturer defendant argued that, unless the
active ingredient was excluded from the damages
calculation, the EMVR would be violated. The Federal
Circuit declined to apply the EMVR because “the
[asserted] patents cover the infringing product as a
whole, not a single component of a multi-component
product.” Id. It further concluded that, because the
“formulation . . . created a new, commercially viable
omeprazole drug . . . previously unknown in the art
and . . . novel in its own right,” the district court did
not err in declining to “exclude the value of the active
ingredient when calculating damages.” Id. at 1340.

A prodrug is a biologically inactive compound that, when
metabolized in the body, produces a “drug,” allowing the active
ingredient in a medication to be delivered to its target. (See Sofia
Tr. at 1073)
6

70a
In response, Gilead correctly observes (see D.I. 565
at 9) that AstraZeneca explicitly refused to adopt a
rule making the EMVR “per se inapplicable in the
pharmaceutical context,” AstraZeneca, 782 F.3d at
1337–38, and it further notes that the facts in this case
are very different from those relating to the infringing
generic product in AstraZeneca. Nevertheless, the
Court agrees with Idenix that under the
circumstances presented in this case, the EMVR does
not apply, a conclusion that is supported by
AstraZeneca. Here, there is substantial evidence to
support the jury’s implicit findings that the ’597
patent covers sofosbuvir (which, at trial, was
undisputed) and that “there is no unpatented or noninfringing feature in the [accused] product[s],” as their
active ingredient is sofosbuvir. Id.
Gilead further contends that Carter’s analysis was
legally flawed because it failed to “apportion his base
to account for the relative value of 2' methyl up,”
Idenix’s contribution to the accused products, “in
comparison to 2' fluoro down and the prodrug,” which
were Gilead’s contributions. (D.I. 565 at 10) Gilead is
correct that, even now that the Court has found that
the EMVR does not apply, AstraZeneca still requires a
“related inquiry” if the asserted claims “recite both
conventional elements and unconventional elements.”
AstraZeneca, 782 F.3d at 1337. In particular, one
must “account for the relative value of the patentee’s
invention in comparison to the value of the
conventional elements recited in the claim, standing
alone.” Id.
Carter sufficiently performed this analysis, in a
manner on which the jury was free to rely —
conclusions the Court reached even before trial. In

71a
denying Gilead’s motion to exclude Carter’s opinions
(see D.I. 297; D.I. 298 at 13–17), the Court explained:
. . . [W]ith respect to damages and the
Entire Market Value Rule, the Court finds
that plaintiffs’ expert [Carter] gives a
reasonable reliable opinion that fits and is
consistent with the law, including that for
use of the medication to treat an ailment,
the smallest saleable unit may be the pill
with the patented active ingredient. The
patented feature may not, under the
circumstances, be segregated out and that
the patented feature may be found to drive
demand. Really on all of these points, the
plaintiffs’ expert expresses an opinion that
is consistent with the law and is based on
inferences that may reasonably be drawn in
plaintiffs’ favor on the evidence.
(D.I. 368 at 145–46; see also Tr. at 535 (Gilead’s
counsel remarking that “this was the subject of
Gilead’s Daubert motion with respect to Mr. Carter,”
which the Court denied))
Gilead argues that the Court’s pre-trial decision
relied on representations made by Idenix but
subsequently broken at trial. In Gilead’s telling,
Idenix made “a promise” to establish at trial that
the ’597 patent’s “cover[age of] the active
metabolite . . . was the basis of customer demand” (D.I.
536 at 21), something Idenix never proved. But, even
assuming that Gilead’s portrayal of the pre-trial
litigation is correct, the failure to fulfill that “promise”
does not mean the Court should grant the relief Gilead
now seeks, because Carter did not ask the jury to

72a
award damages based on the EMVR. (See Carter Tr.
at 792–95) An unfulfilled promise that does not also
render an expert’s analysis deficient, which at most is
what occurred here, is not a meritorious basis for
JMOL, remittitur, or a new trial.
Gilead’s motion with respect to damages will be
denied.
IV. INVALIDITY
Gilead’s motion asks the Court to conclude that
Idenix’s ’597 patent is invalid due to its failure to
comply with the requirements of 35 U.S.C. § 112, 7
which provides, in pertinent part:
The specification shall contain a written
description of the invention and of the
manner and process of making and using it,
in such full, clear, concise and exact terms
as to enable any person skilled in the art to
which it pertains, or with which it is most
nearly connected, to make and use the
same . . . .
Section 112 sets out separate requirements for written
description and enablement. See Ariad Pharm., Inc.
v. Eli Lilly & Co., 598 F.3d 1336, 1344 (Fed. Cir. 2010)
(holding that written description and enablement
requirements are separate). Still, these requirements
“often rise and fall together.” Id. at 1352.

The patent statute was amended in September 2011 by the
America Invents Act (“AIA”). See Leahy-Smith America Invents
Act, Pub. L. No. 112-29, 125 Stat. 284, 300–01 (2011). The preAIA version of § 112 applies in this case. The post-AIA version of
this portion of the statute (§ 112(a)) is identical to the pre-AIA
version.
7

73a
Gilead challenges the jury’s finding that the ’597
patent sufficiently described and enabled its claimed
subject matter. With respect to written description,
which is a factual issue, the Court finds that there was
substantial evidence to support the jury’s conclusion
that clear and convincing evidence does not support a
finding of lack of written description. Just as the
Court twice declined to grant Gilead summary
judgment on lack of written description, so, too, does
the Court again conclude that this was an issue on
which a factfinder could have found for either side.
With respect to enablement, which presents a question
of law, the Court concludes, as a matter of law, that no
reasonable factfinder could find anything other than
that the ’597 patent is not enabled. This being the
Court’s first occasion to evaluate whether any genuine
disputes of material fact preclude resolution of the
enablement issue as a matter of law, the Court
concludes — based on the trial record — that no such
disputes exist.
A.

Written Description
1.

Applicable Law

Whether a specification satisfies the written
description requirement is a question of fact. See
GlaxoSmithKline LLC v. Banner Pharmacaps, Inc.,
744 F.3d 725, 729 (Fed. Cir. 2014); see also Alcon, Inc.
v. Teva Pharms. USA, Inc., 664 F. Supp. 2d 443, 468
(D. Del. 2009) (“Satisfaction of the written description
requirement is a fact-based inquiry, depending on ‘the
nature of the claimed invention and the knowledge of
one skilled in the art at the time an invention is made
and a patent application is filed.’”) (quoting Carnegie
Mellon Univ. v. Hoffmann-LaRoche Inc., 541 F.3d

74a
1115, 1122 (Fed. Cir. 2008)). To comply with the
written
description
requirement,
a
patent’s
specification “must clearly allow persons of ordinary
skill in the art to recognize that the inventor invented
what is claimed.” Ariad, 598 F.3d at 1351 (internal
brackets and quotation marks omitted).
“[T]he test for sufficiency is whether the disclosure
of the application relied upon reasonably conveys to
those skilled in the art that the inventor had
possession of the claimed subject matter as of the filing
date.” Id. “[T]he hallmark of written description is
disclosure.
Thus, ‘possession as shown in the
disclosure’ is a more complete formulation” of the
written description requirement. Id. “[T]he test
requires an objective inquiry into the four comers of
the specification from the perspective of a person of
ordinary skill in the art.”
Id.
“[T]he written
description requirement does not demand either
examples or an actual reduction to practice; a
constructive reduction to practice that in a definite
way identifies the claimed invention can satisfy the
written description requirement.”
Id. at 1352.
However, “a description that merely renders the
invention obvious does not satisfy the requirement.”
Id.
2.

The Jury’s Verdict is Supported by
Substantial Evidence

Gilead contends that the ’597 patent is invalid for
lack of written description because the “closed, defined
list of substituents at 2' (and 3') down” disclosed in the
specification fails to describe the full scope of the
claims, which — at Idenix’s urging — includes all nonhydrogen substituents at these positions. (D.I. 536 at

75a
12–14) Further, Gilead contends that the specification
“does not show possession beyond certain 2' methyl up,
2'/3' OH down molecules,” and asserts that Idenix’s
expert, Dr. Meier, failed to testify as to Idenix’s
“possession of a definite class of compounds . . . useful
to inhibit HCV polymerase.” (D.I. 536 at 17) (internal
quotation marks omitted)
Idenix responds that the specification’s disclosures
are not “closed” in the way Gilead suggests, pointing
to Dr. Meier’s testimony regarding ‘“clear
indication[s]’ in the specification that the HCV
polymerase should be targeted in identifying effective
compounds” as well as the patent’s examples showing
testing data for 2'-methyl ribonucleosides. (D.I. 554 at
14) (quoting Meier Tr. at 1854–56) That is, Idenix
suggests that the scope of the claims is limited by the
functional limitation and guidance in the patent with
respect to the polymerase target. 8
The Court has on two prior occasions considered this
identical dispute. In connection with denying Gilead’s
original and renewed motions for summary judgment
of invalidity based on lack of adequate written
description, the Court twice concluded that the record,
taken in the light most favorable to Idenix, does not
require a reasonable factfinder to find, by clear and
convincing evidence, that the challenged patent claims
are invalid for lack of adequate written description.
(See D.I. 368, 446) The core question posed by the
Idenix also contends that Gilead’s argument was waived, by
virtue of its failure to argue this particular theory to the jury and
failure to present it in its Rule 50(a) motion at trial. The Court
disagrees and has considered all of Gilead’s arguments with
respect to written description.
8

76a
written description requirement is whether the
specification “reasonably conveys to those skilled in
the art that the inventor had possession of the claimed
subject matter.” Ariad, 598 F.3d at 1351. The jury
was entitled to credit Idenix’s evidence, including its
expert’s opinion, and resolve this genuine dispute of
material fact in Idenix’s favor. Substantial evidence
supports the jury’s implicit finding that the record did
not contain clear and convincing evidence of lack of
written description.
Hence, the Court will deny this portion of Gilead’s
motion.
B.

Enablement
1.

Applicable Law

“Enablement is a question of law based on
underlying factual findings.” MagSil Corp. v. Hitachi
Glob. Storage Techs., Inc., 687 F.3d 1377, 1380 (Fed.
Cir. 2012). “To be enabling, the specification of a
patent must teach those skilled in the art how to make
and use the full scope of the claimed invention without
undue experimentation.”
Id. (internal quotation
marks omitted). “Enablement serves the dual function
in the patent system of ensuring adequate disclosure
of the claimed invention and of preventing claims
broader than the disclosed invention.” Id. at 1380–81.
“Thus, a patentee chooses broad claim language at the
peril of losing any claim that cannot be enabled across
its full scope of coverage.” Id. at 1381. “The scope of
the claims must be less than or equal to the scope of
the enablement to ensure that the public knowledge is
enriched by the patent specification to a degree at
least commensurate with the scope of the claims.” Id.
(internal quotation marks omitted).

77a
“Whether undue experimentation is needed is not a
single, simple factual determination, but rather is a
conclusion reached by weighing many factual
considerations.” In re Wands, 858 F.2d 731, 737 (Fed.
Cir. 1988). These factors include: “(1) the quantity of
experimentation necessary, (2) the amount of direction
or guidance presented, (3) the presence or absence of
working examples, (4) the nature of the invention, (5)
the state of the prior art, (6) the relative skill of those
in the art, (7) the predictability or unpredictability of
the art, and (8) the breadth of the claims.” Id.
Although “a specification need not disclose what is
well known in the art,” “[t]ossing out the mere germ of
an idea does not constitute enabling disclosure.”
Genentech, Inc. v. Novo Nordisk A/S, 108 F.3d 1361,
1366 (Fed. Cir. 1997). A patent “cannot simply rely on
the knowledge of a person of ordinary skill to serve as
a substitute for the missing information in the
specification.” ALZA Corp. v. Andrx Pharm., LLC, 603
F.3d 935, 941 (Fed. Cir. 2010).
2.

The ’597 Patent Is Invalid Due to
Nonenablement
a.

Claim construction

As already noted, the Court found it necessary to
resolve multiple claim construction disputes and,
eventually, to hear claim construction arguments on
two separate occasions. The resulting constructions —
which are essentially the constructions Idenix
proposed — have important implications for the
Court’s conclusions as to enablement.
At trial, Idenix asserted claims 1, 2, 4–7, 9–10, 16,
19, 23, and 28–31 of the ’597 patent. Claim 1, the key
independent claim, reads as follows:

78a
A method for the treatment of a hepatitis C
virus infection, comprising administering
an effective amount of a purine or
pyrimidine
β-D-2'-methyl-ribofuranosyl
nucleoside or a phosphate thereof, or a
pharmaceutically acceptable salt or ester
thereof.
Two limitations are of particular significance in
resolving Gilead’s enablement challenge.
First, the claim includes structural limitations
(hereinafter, the “Structural Limitations”). The term
“β-D-2'-methyl-ribofuranosyl nucleoside” encompasses
any β-D-nucleoside that includes “a five member sugar
ring with a methyl group in the 2' up position and nonhydrogen substituents at the 2' down and 3' down
positions.” (D.I. 237 at 12; D.I. 516 at 22)
Second, at Idenix’s urging, the Court construed the
claims to contain a functional limitation, through
claim 1’s preamble (“A method for the treatment of a
hepatitis C virus infection”) and its “effective amount”
term. (See D.I. 446 at 8–13) Specifically, the Court
concluded that claim 1’s preamble is limiting and that
the term “effective amount” means “an amount [of
the . . . ribofuranosyl nucleoside . . .] that is effective
to treat HCV” (hereinafter, the “Functional
Limitations”) (D.I. 447).
Combining these two limitations, the claims cover
all those nucleosides, but only all those nucleosides,
that meet the Structural Limitations — including a
methyl group at the 2'-up position — and the
Functional Limitations of exhibiting effective antiHCV activity. (See, e.g., D.I. 446 at 8–13; Secrist Tr. at
1576–77; Meier Tr. at 1865–66) Thus, as further

79a
explained below, the claims as construed combine
Structural Limitations that are satisfied by an
enormous number of compounds with Functional
Limitations that are satisfied by an unknown, but far
smaller, number of undisclosed compounds.
Also pertinent to the Court’s analysis is what is not
in its claim construction.
Targeting the NS5B
polymerase — which Idenix contends is the key to a
compound demonstrating effectiveness in the
treatment of HCV (see, e.g., D.I. 554 at 8) (identifying
“a defined target (NS5B)”) — is not an explicit claim
limitation. The patent claims are not limited to
compounds that are effective in treating HCV due to
their acting on the NS5B polymerase. Nor does the
patent specification even teach that to identify
effective compounds a person of ordinary skill in the
art (“POSA”) must or even should be looking for
compounds that target the NS5B polymerase.
Instead, the patent explains that effective compounds
can act through “inhibiting HCV polymerase, by
inhibiting other enzymes needed in the replication
cycle, or by other pathways.” (’597 patent col. 139 ll.
30–32) (emphasis added) The patent also discloses
focus on kinase and protease activity. (See ’597 patent
col. 139 ll. 52–59) 9
Further, the accused embodiment — 2' methyl up 2'
fluoro down — which, undisputedly, comes within the
scope of the claims as construed (see, e.g., D.I. 516 at
The jury was free to accept the opinion of Idenix’s expert, Dr.
Chris Meier, that a POSA, with the assistance of the ’597 patent,
would particularly focus on NS5B activity. (See Meier Tr. at
1918) But, as a matter of law, NS5B activity is not a claim
limitation.
9

80a
13), is not expressly disclosed in the ’597 patent. While
fluorine is disclosed as a candidate for the 2' up
position, it is not disclosed as a candidate for the 2'
down position. (Compare, e.g., ’597 patent col. 22 l. 41
(disclosing embodiment with fluorine at 2' up position)
with id. at col. 22 ll. 44–49 (same embodiment without
fluorine listed as option at 2' down position)) Notably,
fluorine is a halogen, and other halogens are disclosed
as candidates for the 2' down position, but, again,
fluorine is not. Even the inventor of the ’597 patent,
Dr. Michael Somadossi, testified that there is no
disclosure of the 2' methyl up 2' fluoro down nucleoside
in either the May 2000 provisional patent application
or the May 2001 patent application. (See Somadossi
Tr. at 456) 10
b.

Pertinent undisputed facts

Gilead characterizes the trial record as largely
devoid of genuine disputes of material fact, while
Idenix contends that the only agreed-upon material
issue is that the POSA had significant qualifications
and experience. (Compare, e.g., Arg. Tr. at 15–17, 89
with id. at 36–37; see Seeger Tr. at 1440 (defining
Gilead contends that 2' methyl up 2' fluoro down is excluded
from the claims, when properly construed. (See, e.g., Secrist Tr.
at 1613–14; Meier Tr. at 1931) At a minimum, in Gilead’s view,
the patent specification teaches away from placing fluorine at the
2' down position. (See, e.g., Arg. Tr. at 96–97) Gilead made these
arguments to the jury (see, e.g., Tr. at 2172) but they were
implicitly rejected. Substantial evidence supports the jury’s
finding. Accordingly, for purposes of resolving Gilead’s JMOL
motion, the Court takes as established that the 2'-fluoro down
embodiment is within the scope of the claims and that the ’597
patent’s specification is silent about — and does not teach away
from — this embodiment.
10

81a
POSA for this case); Meier Tr. at 1849–50 (same); see
also Clark Tr. at 960) Having carefully reviewed the
evidence and considered the parties’ competing
characterizations of it, the Court finds that Gilead’s
view of the record is far more accurate. More
importantly, the Court concludes that several of the
facts pertinent to addressing Gilead’s enablement
defense are undisputed in the record. As importantly,
the remaining facts pertinent to addressing
enablement are ones that, while disputed, could, based
on the trial record, only be resolved in favor of Gilead.
In this subsection and the next, the Court addresses
these undisputed and disputed (but not genuinely
disputed, as they can reasonably be resolved only one
way) facts, respectively.
(i)

The structural limitations
of the claims are satisfied
by billions of compounds

In the Court’s view, it is undisputed that the
Structural Limitations of the claims are satisfied by
billions of compounds. (See Secrist Tr. at 1577; see also
Meier Tr. at 1917–18 (discussed further below)) That
is, the Structural Limitations allow for a vast number
of substituent combinations. Since the compounds of
the claims include multiple locations for binding, and
each binding site can be filled by numerous
substitutions, when all of the possible combinations
are counted up, the sum is an indeterminate number
measured in billions. (See Secrist Tr. at 1577)
As Gilead correctly puts it, “the structural
limitations in the claims encompass nucleosides with
a methyl group in the 2' up position, any substituent
other than hydrogen at the 2' and 3' down positions,

82a
any substituent at other substituent positions on the
nucleoside, and any purine or pyrimidine base.” (D.I.
536 at 5 (emphasis added); see also id. at 3 (“The
claims recite a β-D-nucleoside with a five-membered
sugar ring having, among other features, a methyl
group in the 2' up position and any substituent other
than hydrogen at the 2' and 3' down positions . . . .”)
(emphasis added)) The patent discloses as “principal
embodiments” a number of formulas, each containing
a large number of acceptable modifications. For
instance, even holding the 2' up (R6) position constant
(by, say, directing that it be filled with methyl, which
is not required of all the disclosed formulas), the
“eleventh principal embodiment” (Formula XVII) all
by itself discloses at least (i) 12 options at the R1
position; (ii) 12 options at the R7 (2' down) position
(excluding hydrogen); (iii) 12 options at the R9 (3'
down) position (again excluding hydrogen); and (iv)
either a purine or pyrimidine base, which has multiple
options, as the patent defines the term purine or
pyrimidine base very broadly. (See ’597 patent col. 37
l. 59 – col. 38 l. 10) (noting “[t]he term purine or
pyrimidine base includes, but is not limited to,”
multiple listed compounds) (emphasis added) In other
words, Formula XVII on its own constitutes at least a
minimum
of
approximately
7,000
unique
configurations (1 x 12 x 12 x 12 x 4). 11 And the patent
expressly discloses 18 similar formulas.
This assumes the purine or pyrimidine base is one of four
options — the commonly found bases: adenine, thymine, cytosine,
and uracil — listed in the patent. (See ’597 patent col. 37 ll. 60;
65, 67; see also Rachakonda Tr. at 823–25) The number of
possible configurations increases considerably (by an order of
magnitude) when all the compounds the patent defines as a
11

83a
Idenix derides this fact as merely a “theoretical”
point. (See D.I. 554 at 9) Idenix states that one of skill
in the art would know not to fill in each compound
variable with just any element that would meet the
literal terms of the Structural Limitations. For
example, no one disputes that placing radioactive
plutonium at the 2' down position would meet the
pertinent structural limitation, but it is also
undisputed that a POSA would never use plutonium
for this purpose, given that the patent is directed to
compounds effective as medicines for human beings
(whereas a plutonium pill would presumably kill
humans). (See Secrist Tr. at 1722–23)
Still, Idenix’s point only effectively reduces the
“scope” of the structural limitations from billions of
compounds to, likely, millions or at least many, many
thousands. Even Idenix’s interpretation of its own
expert witness’ testimony, Dr. Meier, does not
undermine Gilead’s portrayal of the undisputed
evidence. Idenix writes:
Dr. Meier expressly disputed the notion that
the claims implicate “a lot of compounds.”
He testified that if a skilled artisan followed
Gilead’s
“theoretical
approach”
and
considered every conceivable combination
(even those no ordinary skilled artisan
would consider), then there would have been
“a lot of compounds.” (Tr. 1917:20–1918:11.)
But Dr. Meier reasoned that scientists
“would not approach a patent” this way;
instead, they “would take into account the
purine or pyrimidine base are taken into account.
patent col. 37 l. 59 – col. 38 l. 10)

(See ’597

84a
patent as a whole and the description of the
patent and what is mentioned in” it and
arrive at a number “significantly smaller.”
(Tr. 1918:11–19.)
(D.I. 554 at 9)
Through all this what remains undisputed is that
the Structural Limitations of the claims are literally
satisfied by billions of compounds.
Even fully
crediting Idenix’s view (and Meier’s testimony) on this
point, the “significantly smaller” number still leaves a
POSA with a very large (and unspecified) number of
compounds, measured at least in the thousands. Both
numbers — the billions and the at least many
thousands — are relevant to the enablement analysis.
In the remainder of this Opinion, the Court will use
the term “Structural Limitations” to refer to the
billions of compounds that literally satisfy the claims’
structural limitations and will use the term “Refined
Structural Limitations” to refer to the at least many
thousands of those compounds — from among those
billions — on which a POSA, relying on her experience
and “common sense,” would focus in attempting to
practice the patent. 12

While the Functional Limitations are satisfied by far, far
fewer compounds, no reasonable factfinder — for reasons fully
explained below — could have found that the ’597 patent enabled
all of the embodiments that fully meet the claims; i.e., those that
satisfy the Structural (or even Refined Structural) and
Functional Limitations.
12

85a
(ii) POSAs were capable of
working with billions of
compounds
It is undisputed that, at the pertinent time, POSAs
were capable of working from baseline classes
containing potentially billions of compound variations
to identify subsets of potentially interesting
arrangements. (Secrist Tr. at 1709) Idenix notes that
Dr. Secrist, one of Gilead’s experts, is the inventor on
a patent for HCV compounds that he characterized as
claiming billions of compounds but as disclosing only
a small number. (Secrist Tr. at 1708–10; see also id.
at 1562–63 (discussing number of compounds and rate
at which they can be synthesized)) 13

Neither Gilead nor its experts have endorsed the position
that inventions in this area of art — or even inventions in this
area of art having structural limitations that are literally
satisfied by billions of compounds — are automatically nonenabled or inherently suspect. As is made clear throughout the
remainder of this Opinion, the required enablement analysis
must take into account numerous factors, facts, and
circumstances, leading to an ultimate conclusion as a matter of
law. A wide disparity between the number of compounds
satisfying the Refined Structural Limitations and those also
satisfying the Functional Limitations, combined with only a little
bit of guidance given in the patent for how to navigate from the
larger to the smaller category, are big factors (though not the sole
considerations) in rendering the ’597 patent invalid for lack of
enablement. See generally Wands, 858 F.2d at 737 (“Whether
undue experimentation is needed is not a single, simple factual
determination, but rather is a conclusion reached by weighing
many factual considerations.”); but see also generally In re Fisher,
427 F.2d 833, 839 (C.C.P.A. 1970) (“In cases involving
unpredictable factors, such as most chemical reactions and
physiological activity, the scope of enablement obviously varies
13

86a
(iii) The functional limitations
greatly reduce the scope
of the claims
The claims do not, of course, consist solely of the
Structural Limitations or even just the Refined
Structural Limitations.
They also include the
Functional Limitations. It is undisputed that far, far
fewer compounds also satisfy the Functional
Limitations of being effective for the treatment of
HCV.
Relatedly, in analyzing the ’597 patent, POSAs
would not “check their common sense at the door.”
(Secrist Tr. at 1723) Instead, POSAs would interpret
the structural limitations in light of the patent’s
disclosure as a whole and while considering the
purpose of the claimed compounds. (See Meier Tr. at
1918; see also Secrist Tr. at 1723–24 (Gilead expert
Secrist agreeing that one would not “choose tractor
tires” in “build[ing] a [rolling] suitcase,” adding that
POSAs “are going to bring their knowledge and they’re
going to look at what’s in the patent, which doesn’t
include a hundred carbon chain”)) In essence, then, a
POSA’s common sense and experience will do some
work in narrowing the scope of the claims to a set of
compounds substantially less than all embodiments
that merely satisfy the structural limitations stated in
the claims. Again, the Court’s defined term of “Refined
Structural Limitations” captures this reduction from
the far broader scope of compounds that meet the
literal “Structural Limitations” of the claims.

inversely with the degree of unpredictability of the factors
involved.”).

87a
Hence, the Functional Limitations greatly reduce
the scope of the claims.
(iv) While 2'-methyl up was
“key” to curing HCV, it
was not sufficient, as not
all 2'-methyl up
compounds are effective
against HCV
It is undisputed that not all 2' methyl up compounds
are active against HCV or effective in treating HCV. 14
In other words, it is undisputed that something more
(and something more specific) than just 2' methyl up
is needed for a compound to be effective in treating
HCV. While placing methyl at the 2' up position was
“key” to curing hepatitis C (Meier Tr. at 1908), this
placement was necessary but not nearly sufficient to
result in the invention. The claims do not provide —
nor does the specification disclose — that the “key”
structural limitation is the 2'-methyl up. (See D.I. 536
at 9; D.I. 565 at 5 (citing ’597 patent col. 139 ll. 30–32))
Relatedly, it is undisputed that there are many
“inoperable embodiments” that contain 2' methyl up,
and otherwise satisfy the claims’ Structural
Limitations, but do not satisfy the claims’ Functional
Limitations. Indeed, it is undisputed that many 2'methyl up nucleosides are inactive or toxic. (See
McHutchison Tr. at 1215–17, 1245–47, 1251–52) Nor
does the patent even focus on methyl at the 2'-up
position, and it includes examples that do not even
Like the parties, the Court sometimes includes a hyphen
after 2' (e.g., 2'-methyl up) and sometimes does not (e.g., 2' up).
No significance should be attributed to this minor discrepancy in
nomenclature.
14

88a
allow methyl at that position. (See, e.g., ’597 patent
col. 11 ll. 1–17)
It is further undisputed that not even all of the
compounds expressly disclosed in the patent
specification are effective to treat HCV. Therefore, it
is undisputed that the specification is replete with
embodiments that are not within the scope of the
claims.
c.

Factual disputes that, based
on the trial record, could only
reasonably be resolved in
Gilead’s favor

The Court now turns from the undisputed facts to
those facts that are disputed but which, in the Court’s
view, present disputes on which a reasonable jury,
taking the trial record in the light most favorable to
Idenix and drawing all reasonable inferences in favor
of Idenix, could only have found in favor of Gilead.
“The rule that a jury verdict is reviewed for support by
‘substantial evidence’ does not mean that the
reviewing court must ignore the evidence that does not
support the verdict. . . . That is, the court should give
credence to the evidence favoring the nonmovant as
well as that evidence supporting the moving party that
is uncontradicted and unimpeached.”
Integra
Lifesciences I, Ltd. v. Merck KGaA, 496 F.3d 1334,
1345 (Fed. Cir. 2007).
The Court concludes that while each of the following
topics were disputed, they are not genuinely in
dispute, in that a reasonable factfinder could only
have found for Gilead on these disputes. Nor does the
Court find that there are any other material factual
disputes regarding enablement that are in genuine

89a
dispute. Instead, Gilead has shown that “the record is
critically deficient of the minimum quantity of
evidence to sustain the verdict.” Accumed LLC v.
Advanced Surgical Servs., Inc., 561 F.3d 199, 211 (3d
Cir. 2009) (internal quotation marks omitted). 15
(i)

Many embodiments were
not readily available and
would have required
synthesis, which takes
substantial time and
effort

While not undisputed, a reasonable factfinder at
trial could only have found that a great deal of time
and effort (i) would have been required if a POSA
wanted to synthesize every compound that met the
Refined Structural Limitations of the claims (that is,
if a POSA wanted to have in hand all of the compounds
satisfying the Refined Structural Limitations); and (ii)
may also have been required to synthesize any
particular compound that met the Refined
Idenix contends that the Court must apply what is
essentially a summary judgment standard, taking the “full and
rich” record (Arg. Tr. at 34–35) and resolving all disputed facts in
its favor and also drawing all reasonable inferences in favor of
Idenix as the verdict winner. The analysis the Court is
undertaking in this section is entirely consistent with such an
approach. Indeed, it is the type of analysis the Court would have
undertaken had either side filed a motion for summary judgment
regarding enablement. Cf. Liebel-Flarsheim Co. v. Medrad, Inc.,
481 F.3d 1371, 1372, 1379 (Fed. Cir. 2007) (affirming summary
judgment of invalidity for lack of enablement where, among other
things, “inventors admitted that they [had] tried unsuccessfully
to produce a pressure-jacketless system and that producing such
a system would have required more experimentation and
testing”).
15

90a
Structural Limitations of the claims, including the
embodiment that is now called sofosbuvir (i.e., 2'
methyl up 2' fluoro down). Many — if not the vast
majority — of these compounds were not readily
available to a POSA “off the shelf.”
In order to determine which compounds were
embodiments of the claims, synthesis would have been
necessary. This conclusion — which a reasonable
factfinder, even taking all of the evidence in the light
most favorable to Idenix, and drawing all reasonable
inferences in Idenix’s favor — arises from a related
finding a reasonable factfinder would also have had to
have made. That is, while some limited number of
compounds meeting the Structural Limitations of the
claims were already available — for instance, in
“libraries” of compounds maintained by a
pharmaceutical companies — only relatively few of the
billions of compounds meeting those Structural
Limitations were available at the pertinent date.
Idenix’s expert, Dr. Meier, acknowledged that not
all compounds of interest were commercially
available. (See Meier Tr. at 1855) Instead, they
needed to be synthesized (before they could be
screened for whether they meet the Functional
Limitations of the claims, which is discussed in detail
in the next section). (Id.) Idenix’s Dr. Gosselin agreed
with the proposition that “you don’t know whether or
not a nucleoside will have activity against HCV until
you make it and test it.” (Gosselin Tr. at 1334)
(emphasis added)
No witness contradicted Gilead’s Dr. Secrist’s
opinion that “an average chemist could make only 2–3
nucleosides a month.” (Secrist Tr. at 1562–63, 1601)

91a
Other witnesses testified about the existence of
compound libraries, but without describing their size
— leaving no basis to find that their size even began
to approach billions or even many thousands of
compounds. (See La Colla Tr. at 498, 502–03 (noting
library without characterizing its size); Stuyver Tr. at
657–58 (testifying that Kyo Watanabe, VP of
chemistry at Pharmasset, came with a library of
nucleoside compounds, including a 2' down fluoro
cytosine, but none of which had 2' methyl up, and not
knowing “complete content” of that library); Hasan Tr.
at 947–48 (noting Pharmasset had library of
compounds); Cook Tr. at 1336 (noting existence of
library with 2' modified compounds without
characterizing its size))
It is not reasonable to infer from the specific
numbers of compounds said to be in the libraries, or
from the testimony about libraries that did not even
describe the size of the libraries, that any large
proportion of the compounds meeting the Structural
Limitations or Refined Structural Limitations of the
claims was available without synthesis. To the
contrary, the only conclusion supported by substantial
evidence is that a POSA would have had to synthesize
a significant number of candidate compounds, which
would have required a substantial amount of time.
(See Secrist Tr. at 1728) (stating that number of
readily-available compounds was “a pretty small
number. Very small number, I would say,” adding
that compounds contained in library “don’t last
forever”) Thus, the availability of compounds to screen
was a substantial rate-limiting factor.
A large
percentage of the compounds a POSA would want to
test — as they plainly met the Structural Limitations

92a
of the claims, and might be predicted to have
potentially satisfied the Functional Limitations as
well — were not readily available and needed to be
synthesized before they could be studied. (See also
generally Arg. Tr. at 38) (counsel for Idenix: “Well,
certainly, to practice the invention, one has to make
the compound.”) And, as set out immediately below,
synthesis of just one candidate compound (indeed, the
compound presently accused of infringement) might be
a multi-year pursuit on its own.
(ii) Synthesis of 2' methyl up
2' fluoro down was
neither routine nor
simple
The parties and their experts disputed whether
synthesis of the embodiment that is contained in
Gilead’s accused products, 2' methyl up 2' fluoro down,
was simple and routine. Despite the amount of
competing evidence presented, the Court concludes
that a reasonable factfinder could only have found that
synthesis of this particular compound was neither
routine nor simple but, instead, required extensive
experimentation.
This conclusion is most vividly demonstrated by the
experience, and repeated failures, of Idenix’s Dr. JeanFrancois Griffon. Dr. Griffon first began to attempt
making 2'-methyl up 2'­fluoro down in March 2002.
(See DX189.0002) By February 2003 he was reporting
multiple failures in completing his task.
(See
DX1129.0001) In November of that year; Idenix
abandoned the effort. (DX268.0002) Idenix reinstated
the project in February 2004.
(DX2184.0002)
Throughout that year, Dr. Griffon reported more

93a
failures. (DX2186.0007 (June 2004); Griffon Tr. at
1183 (admitting that as of June 2004 “all the
strategies that were attempted to introduce a methyl
group at the 2' up position and a fluorine atom at the
2' down position failed”); DX1171.0002 (Sept 2004);
Griffon Tr. at 1181–82 (Sept. 2004)) Only in March
2005 — two months after the publication of U.S.
Patent Application No. 2005/0009737 (DX371), issued
to Pharmasset’s Jeremy Clark (more on him below),
had been distributed at Idenix — did Idenix first
succeed in making and testing 2'-methyl up 2'-fluoro
down. (DX359; DX0274.0119, .0122; Wang Tr. at
1196, 1198–1200 (stating that in March 2005 Idenix
first successfully synthesized “an unprotected 2'methyl-2'-fluoro nucleoside” and recognized it had
done so); Standring Tr. at 1831–33) In short, the
undisputed record shows that, between 2002 and
2005, Idenix tried and failed to make and test a 2'methyl up 2'-fluoro down nucleoside, and only
succeeded when Dr. Griffon “us[ed] information
from
a
published
Pharmasset
patent
application.” (Griffon Tr. at 1172–83 (emphasis
added); see also Stewart Tr. at 1188–94; Standring Tr.
at 1831; DX268.002; DX2184; DX359)
Idenix’s response to this devastating evidence is
that it is “possible” (Griffon Tr. at 1187) that Dr.
Griffon “may have actually [and unknowingly] formed
the target [compound]” at some earlier point. (D.I. 554
at 12) Dr. Griffon did not test each of the reaction
products he obtained from his experiments, so he could
not rule out the possibility that maybe he had
synthesized what he intended sometime before he
recognized he had done so. (Griffon Tr. at 1184–87)
The suggestion that Dr. Griffon may have actually

94a
formed the target compound without realizing it is
pure speculation. More importantly, if an experienced
scientist like Dr. Griffon worked for several years
intentionally trying to synthesize the particular
accused compound and actually succeeded but only
wrongly thought he failed, such “facts” would provide
no basis for a reasonable factfinder to find that this
synthesis is easy or routine.
As an alternative response to Dr. Griffon’s failures
Idenix points to the success of Pharmasset’s Jeremy
Clark, mentioned just above. It is undisputed that
Clark does not have a doctoral degree, but just a
master’s degree, and, accordingly, does not meet the
Court’s definition of a POSA. (Compare Clark Tr. at
960 with Seeger Tr. at 1440 and Meier Tr. at 1849–50)
Idenix presented evidence that Clark, despite his lack
of qualifications, was confident that he would be able
to make a modified nucleoside with a fluorine atom at
the 2' down position (see Otto Tr. at 694; Clark Tr. at
996) and managed to produce the compound in
relatively short order by “following a well-known
synthetic route (of the type disclosed in the ’597
patent) [DAST] and using a common fluorinating
reagent” (D.I. 554 at 11–12) (citing Otto Tr. at 696;
Clark Tr. at 977–80, 992–95). At Pharmasset, Clark
developed compound PSI 6130, which is a 2'-methyl up
2'-fluoro down modified nucleoside. (See Clark Tr. at
977–80, 992–95) Accepting all of this as true does no
more for Idenix than, at best, neutralize the evidence
of Dr. Griffon’s failure. It does not, however, provide
substantial evidence that synthesizing the target
methyl-fluoro compound was easy or routine.
Idenix relatedly contends that the jury could have
reasonably found that Clark’s success was based on

95a
his reliance on Idenix’s PCT patent application,
providing strong support that the asserted patent
claims are enabled, because the ’597 patent shares the
same specification as the PCT patent application.
(See, e.g., Arg. Tr. at 46–47) A reasonable jury could
not have made such a finding.
Pharmasset’s Dr. Otto testified that when Clark
came to him with the idea for the compound that
became 6130, Otto told Clark to conduct a literature
search, and thereafter Clark “did bring with him to my
office” a copy of a Novirio (i.e., Idenix) patent
application. (Otto Tr. at 696) However, in response to
being asked at trial “did he present you with any
literature that guided him to 6130,” Otto responded,
“Well, he didn’t say what necessarily guided him to
that idea.” (Otto Tr. at 696) (emphasis added)
Idenix argues: “So the jury could reasonably infer
from this that [the] Novirio application, the Idenix
patent application, and this was the specification that
is the ’597 patent, is what guided Mr. Clark to 2'methyl, 2' fluoro, and aided him in his synthesis,
which he was able to do with ease during this time
frame with clearly having Idenix’s patent application
in hand.” (Arg. Tr. at 46–47) But this is not a
reasonable inference to draw from either the specific
testimony on which Idenix relies or the overall
evidentiary record created at trial.
Contrary to Idenix’s suggestions, Clark did not say
he used Idenix’s patent as a guide, and Otto did not
say that Clark said he did. When asked how it is that
he thought of using 2'-methyl up 2'-fluoro down, Clark
answered: “Probably from reading the literature. If
you go back to the old literature of the 2'-

96a
methylcytidine, those compounds were made in the
late ‘60s . . . So I can’t say for certain, but I would
almost certainly say that it had to do with reading the
old literature. . . .” (Clark Tr. at 961–62) He came to
use methyllithium because it “was analogous to work
by Matsuda . . .at the nuleoside level.” (Clark Tr. at
977) While Clark stated that the reaction took only 15
minutes (Clark Tr. at 979–80), the only reasonable
interpretation of his testimony, as a whole is that the
process of conceiving and creating the compound took
far longer, weeks in fact. The synthesis with the sugar
he described as “the spawn of the devil. This took me
many, many times of going back and doing the same
steps over and over, and the reason was in part
because this reaction here was extremely messy and
for some reason it would not scale up . . . .” (Clark Tr.
at 976–77) 16

In denying Idenix’s motion to enhance damages based on
Gilead’s willful infringement, the Court stated:
16

When Pharmasset’s Jeremy Clark was describing to
his boss, Dr. Michael Otto, Clark’s breakthrough —
the synthesis of a 2'-methyl up 2'-fluoro down
compound, later labeled PSI-6130 — he had Idenix’s
patent application in hand. (See, e.g., Tr. at 1006)
The jury implicitly found that Clark and others at
Pharmasset copied (and were assisted by) Idenix’s
work.
(D.I. 587 at 6) The Court further held that “substantial evidence
was presented at trial” to support the jury’s implicit finding that
Gilead deliberately copied Idenix’s invention. (Id. at 7) In
describing the interactions between Clark and Otto, when Clark
had “Idenix’s patent application in hand” (id. at 8), the Court
further stated that “the jury presumably found that at some point
in time Pharmasset or Gilead acted in bad faith” (id. at 8–9).

97a
Idenix’s expert, Dr. Meier, opined that the
experimentation required to make nucleosides was
routine at the pertinent date. (See Meier Tr. at 1922,
1936)
But given Idenix’s own well­documented
failures to intentionally synthesize the specific
relevant compound for several years, and the entire
record, the Court concludes that no reasonable
factfinder could find that it was easy or merely routine
to synthesize the 2'-methyl up 2'-fluoro down
compound. 17
These were appropriate conclusions in the context of assessing
the “Read factors” and exercising discretion as to whether
damages should be enhanced. Importantly, in that analysis the
Court was assuming, without deciding, that Gilead’s pending
motion would be denied in full. (See D.I. 587 at 2 n.4) In the
context now of evaluating Gilead’s motion, the Court can only
credit reasonable inferences that a reasonable jury could have
drawn based on the evidence it heard. In this context, the Court
has determined that it would not have been reasonable for the
jury to have found that Clark used the ’597 patent application as
the basis for his compound or that Clark’s experience supports a
conclusion of enablement. In making the conclusion as a matter
of law whether the claims are enabled, the Court cannot consider
an unreasonable finding of fact. At bottom, the only reasonable
finding one can make from the Clark evidence is that it does not
defeat Gilead’s showing that the patent claims lack enablement.
17 Limited, further support for this conclusion is found in the
Federal Circuit’s recent decision in Storer v. Clark, 860 F.3d 1340
(Fed. Cir. 2017), which addresses an Idenix patent related to
the ’597 patent-in-suit. In Storer, Idenix appealed the Patent
Trial & Appeal Board’s (PTAB) finding that a 2002 provisional
application did not enable Idenix’s claim in a patent (issued
subsequent to the ’597 patent) for use of a 2'-methyl-fluoro
nucleoside. The Federal Circuit affirmed the PTAB’ s invalidity
determination, holding that “substantial evidence supports the
finding that ‘a high amount of experimentation is necessary to
synthesize’ the target compound.” Id. at 1352.

98a
(iii) While
nucleoside
synthesis was well-known,
the
use
of
modified
ribonucleosides
for
treatment of HCV was in
its infancy
A reasonable factfinder could only find that while
nucleoside synthesis, in general, was not a new field
in 2000 — indeed, synthesizing and modifying
nucleosides was a well-known and routine art at this
pertinent date (see Secrist Tr. at 1725, 1727–28; Meier
Tr. at 1921–25, 1936) — the more specialized task of
synthesis of modified nucleosides for the treatment of
HCV was in its infancy.
The patent discloses “multiple synthetic routes for
making at least several members” of the “small class”
of compounds effective active against HCV. (D.I. 554
at 4; see also Secrist Tr. at 1594; Meier Tr. at 1922–
25; ’597 patent Scheme 3) Modifications involving
prodrugs and hydroxy or phosphate groups at the 3'
and 5' positions were routine and within a POSA’s
skillset. (See Secrist Tr. at 1726–27) (acknowledging
that “nucleoside synthesis” was not in its infancy)
Storer is distinguishable because it involved a different patent,
having different claims as well as a different specification than
the ’597 patent. Also, the evidentiary record here is far more
developed than that which was before the PTAB and the Court of
Appeals, and the legal standard applicable here (on Gilead’s
challenge to a jury verdict in favor of Idenix) is far more favorable
to Idenix than it was on appeal from a loss in the PTAB. Clearly,
then, Storer by no means compels a conclusion that the ’597
patent is also invalid due to lack of enablement. But it is
consistent with this Court’s conclusion that the experimentation
involved with the ’597 patent is neither routine nor simple.

99a
However, research involving the use of modified
nucleosides as treatments for HCV was “in its
infancy” in the 2000–2001 period. (Meier Tr. at 1927–
28; see also Arg. Tr. at 56 (Idenix conceding that use of
nucleosides to treat HCV “was in an early stage” at
pertinent date))
Idenix’s expert, Dr. Meier, admitted that, even as of
2012, nucleoside activity against HCV remained
unpredictable. (See Meier Tr. at 1928–29) Indeed,
unrebutted evidence at trial demonstrated that even
seemingly minor changes to active or effective
compounds can — unpredictably — render the
modified compounds inactive or even toxic. (See, e.g.,
Sofia Tr. at 1116; McHutchison Tr. at 1252–53)
Moreover, even though POSAs would have been
informed by the pursuit of compounds acting on HCV
polymerase, they could not simply and readily
ascertain with any certainty which structures would
have that activity.
(iv) Determining whether a
compound meeting the
structural limitations also
satisfied the functional
limitations required
screening, which takes
substantial time and
effort
Because the activity of a modified nucleoside, and
especially its effectiveness in treatment of HCV, is
unpredictable — even for compounds satisfying the
Structural Limitations or Refined Structural
Limitations of the claims — a reasonable factfinder
could only have found that it was necessary to screen

100a
these compounds in order to determine if they also met
the Functional Limitations of the claims.
This
screening would have taken additional substantial
time and effort, on top of the time and effort required
to synthesize the compounds.
The ’597 patent discloses: “The βD- and βLnucleosides of this invention may inhibit HCV
polymerase activity. Nucleosides can be screened
for their ability to inhibit HCV polymerase
activity in vitro according to screening methods set
forth more particularly herein.” (’597 patent col. 13 ll.
42–49) (emphasis added) The patent discloses several
methods for screening compounds that meet the
claims’ Structural Limitations, methods that would
allow a POSA to determine if such compounds also
satisfy the Functional Limitations. (De FrancescoTr.
at 1980–81; see also ’597 patent col. 139 ll. 29–50)
Other methods were also known in the art. (See Meier
Tr. at 1855–56; De FrancescoTr. at 1982–88; see
generally Seeger Tr. at 1488–90; PDX9)
Based on the record presented at trial, a reasonable
jury would have to have found that, as of the pertinent
date, a POSA would have understood that, in the
context of the pertinent art, “very small changes . . .
create a new molecule” so “it’s impossible to predict
whether that molecule is active or not.” (Seeger Tr. at
1436; see also id. Secrist Tr. at 1584–85 (“[T]he
smallest change can have a dramatic effect not only on
the activity of that compound but on the toxicity of the
compound.”); DX338; Arg. Tr. at 15–17) Further
testing, that is, screening, would have been necessary
to determine if any particular compound met the
claims’ Functional Limitations.

101a
Idenix’s witnesses concurred. Dr. De Francesco,
Idenix’s virology expert, explained, “[N]ucleosides can
be screened for ability to inhibit HCV polymerase
activity in vitro. . . . We use the screening because that
is the way you actually cut down the number of
compounds, by removing all inactive ones to a few
interesting ones.” (De Francesco Tr. at 1969–70; see
also id. at 1979–89; Meier Tr. at 1855 (testifying about
screening methods)) Idenix’s Dr. Gosselin agreed with
the proposition that “you don’t know whether or not a
nucleoside will have activity against HCV until you
make it and test it.” (Gosselin Tr. at 1334) (emphasis
added) Consistent with this testimony, at the motions
hearing Idenix’s counsel acknowledged “[c]ertainly”
one would “have to do some screening,” at least
“[s]ometimes.” (Arg. Tr. at 39)
Idenix contends that testimony from Dr. Raffaele
De Francesco provided substantial evidence for the
proposition that screening methods either disclosed in
the patent or known in the art “could test a large
amount of compounds in a relatively short period of
time.”
(D.I. 554 at 6; see also D.I. 582 at 3
(“Dr. De Francesco testified that, as of 2000, his lab
[had] tested over 100,000 compounds in the HCV
polymerase assay and, in only a three-month period in
2000, tested 18,000–20,000 compounds in the HCV
replicon assay.”) (citing Tr. at 1984–85, 1988–89); De
Francesco Tr. at 1984 (“[I]t was possible to screen
thousands or even tens of thousands of compounds in
a relatively short time frame, and without any undue

102a
experimentation”)) 18
Taking Dr. De Francesco’s
testimony as true does not support a finding that
screening was not required, nor does it support a
finding that anything less than a great deal of
screening would have been necessary in order to
identify all of the compounds meeting the Refined
Structural Limitations and also satisfying the
Functional Limitations. It may, at best for Idenix,
only mean that the rate at which screening limited a
POSA’s ability to “make and use the full scope of the
claimed invention,” MagSil, 687 F.3d at 1380, was less
than Gilead contended and maybe less than the rate
at which synthesis limited a POSA’s ability to do the
same. Still, however, a reasonable jury could only
have found that screening would have been a
significant rate-limiting factor, as screening would
have been necessary, takes time, yields unpredictable
results, and would need to be undertaken repeatedly.
(See Seeger Tr. at 1486–94)
(v) Whether a compound
satisfying the structural
limitations would also
meet the functional
limitations could not be
predicted nor “visualized”
Idenix’s contrary position — that a POSA could
visualize embodiments that would meet all of the
limitations of the claims (including the Structural and
Functional Limitations) without screening — is not

By contrast, Dr. Tausek, a biologist in Idenix’s HCV group,
testified that testing 37 compounds of interest in a month is
considered a lot. (See Tausek Tr. at 1202–03)
18

103a
supported by substantial evidence. No reasonable
factfinder could have made such a finding.
Idenix insists that it presented substantial evidence
that screening was not required in order for a POSA
to be able to discover active compounds meeting the
claims’ Functional Limitations. Instead, Idenix views
the evidence as having established the viability (and
existence) of a “visualize . . . and confirm” process for
identifying effective compounds. (D.I. 554 at 9)
Specifically, the patent’s disclosure, in combination
with the knowledge of a POSA, would have allowed a
POSA to “visualize the ‘other compounds’ expected to
have anti-viral activity.” (D.I. 554 at 4) For support,
Idenix points to the patent’s disclosure that the
“invention may inhibit HCV polymerase activity”
(Meier Tr. at 1855) (quoting ’597 patent col. 13 ll. 43–
44), which means, according to Idenix, that POSAs
would “focus on 2'-methyl compounds that are likely to
inhibit that enzyme” (D.I. 554 at 4; see also Meier Tr.
at 1854), particularly compounds with a hydroxy
group at 2' down.
In the Court’s view, substantial evidence does not
support Idenix’s contention. Idenix’s characterization
of screening as merely “confirmatory” (D.I. 554 at 10
n.3) ignores both its experts’ testimony and the patent
itself. De Francesco testified that “one can readily
determine the spectrum of activity by evaluating the
compound in the assays described in the patent or
with confirmatory assays.” (De Francesco Tr. at 1970)
(emphasis added) Almost immediately thereafter, he
unambiguously noted that screening is like a “filter,”
and is used “because that is a way you actually cut
down the number of compounds, by removing all
inactive ones to a few interesting ones.” (De

104a
Francesco Tr. at 1970) (emphasis added) Further, Dr.
Gosselin testified that “you don’t know whether or not
a nucleoside will have activity against HCV until you
make it and test it.” (Gosselin Tr. at 1334) Also, as
Gilead points out, the patent “instructs a POSA to
discover active compounds using screening,” and that
screening is “the tool to determine if a compound
inhibits NS5B polymerase.” (D.I. 536 at 6–7) All of
this is reinforced by the undisputed novelty and
infancy of the field at the relevant time (described
above). And, notably, no witness testified at trial that
a POSA could “visualize” all embodiments of the
claims. 19
Hence, even assuming that a POSA would have
chosen to focus exclusively on NS5B, the range of
possibilities and unpredictability of the art foreclosed
19Idenix

further points to testimony suggesting that a POSA,
informed
by
knowledge
of
“steric
hindrance
and
electronegativity,” might also pursue only substituents that
“mimic hydroxy in some way,” which would include fluorine.
(Hassan Tr. at 954; Storer Tr. at 1155–58) Idenix premises this
contention principally on the testimony of its expert, Dr. Storer,
who joined Idenix after the ’597 patent application had been filed.
Dr. Storer’s testimony does not support the conclusions Idenix is
drawing from it. In order to help enable the patent claims, the
information about which Storer testified must be contained in the
patent specification, which it is not; it cannot solely rest within
the knowledge of a POSA. See ALZA, 603 F.3d at 941 (“To satisfy
the plain language of § 112, ¶ 1, [plaintiff] was required to provide
an adequate enabling disclosure in the specification; it cannot
simply rely on the knowledge of a person of ordinary skill to serve
as a substitute for the missing information in the specification.”);
MagSil, 687 F.3d at 1380 (“To be enabling, the specification of a
patent must teach those skilled in the art how to make and use
the full scope of the claimed invention without ‘undue
experimentation.”) (internal citation omitted).

105a
mere deductive
strategy.

“visualization”

as

a

successful

Hence, a reasonable factfinder could only reach one
conclusion: that the range of potential candidates is
and was substantial, and that testing played an
indispensable and exploratory — rather than
confirmatory — role in a POSA’s attempts to practice
the ’597 patent’s claims.
d.

Application of Wands factors

In contrast to the billions of compounds satisfying
the claims’ Structural Limitations, and in contrast to
the at least many thousands of compounds satisfying
the Refined Structural Limitations, only a very small
number of those compounds also satisfy the claims’
Functional Limitations. That is, taking the evidence
in the light most favorable to Idenix, a reasonable jury
had to find that “not a large class” of the compounds
meeting the Structural Limitations are active against
HCV. (D.I. 582; see generally Seeger Tr. at 1486–88,
1578, 1918) In other words, the number of effective
compounds is far smaller than (a) the number of
compounds meeting just the Structural Limitations,
(b) the number of compounds meeting just the Refined
Structural Limitations, and (c) the range of
compounds disclosed as potential embodiments in the
patent’s specification.
This fact, however, would leave a POSA asking
herself the crucial question: which of the compounds
meeting the Refined Structural Limitations also
satisfy the Functional Limitations? A reasonable
factfinder could only conclude that the patent fails to
provide this necessary information. (See D.I. 516 at
31) (Jury Instruction on Enablement, including: “A

106a
patent specification must contain a sufficiently full
and clear description of how to make and use the full
scope of the claimed invention. . . . In order to be
enabling, the patent must permit persons having
ordinary skill in the field of technology to make and
use the full scope of the claimed invention at the time
of original filing without having to conduct undue
experimentation.”) As a matter of law, based on the
undisputed facts and the facts that, although
disputed, a reasonable factfinder would have to have
found (by clear and convincing evidence), the ’597
patent is invalid due to lack of enablement.
This is the conclusion compelled by application of
the Wands factors to the record before the Court.
Consistent with Wands, the Court instructed the jury:
In deciding whether a person having
ordinary skill would have to experiment
unduly in order to make and use the
invention, you may consider several factors:
(1)

the quantity of
experimentation necessary;

(2)

how routine any necessary
experimentation is in the
relevant field;

(3)

whether the patent discloses
specific working examples of
the claimed invention;

(4)

the amount of guidance
presented in the patent;

(5)

the nature and predictability
of the field;

107a
(6)

the level of ordinary skill;
and

(7)

the scope of the claimed
invention.

No one of these factors is alone
dispositive. Rather, you must make your
decision as to whether the degree of
experimentation required is undue based
upon all of the evidence presented to you
with regard to all of the factors above. You
should weigh these factors and determine
whether or not, in the context of this
invention and the state of the art at the time
of the relevant application, a person having
ordinary skill would need to experiment
unduly to make and use the full scope of the
claimed invention.
(Id. at 31–32)
First, with respect to “the quantity of
experimentation necessary,” significant work is
necessary to synthesize and screen the full scope of the
compounds that fall within the claims, or even to
synthesize and screen any particular compound
coming within the scope of the claims. Second, while
some of that experimentation was routine, much of it
was not, as is demonstrated at least by Dr. Griffon’s
failures. The next factors — the disclosure in the
patent of “specific working examples” and the “amount
of guidance presented in the patent” — also favor a
finding of nonenablement. While the patent discloses
working embodiments, routes for making the claimed
nucleosides, and assays for screening candidates, the
claims’ Structural Limitations are enormously broad,

108a
the Refined Structural Limitations are also quite
broad, and the patent’s examples disclose a significant
number of possible arrangements. The claims do not
require a focus on the NS5B polymerase, many
embodiments with a 2'-methyl up are inoperable or at
least ineffective for the treatment of HCV, and the
embodiment with fluorine at the 2'-down position is
not disclosed — even though it is disclosed as a
candidate for other positions. These factors, then,
support only a finding of nonenablement. 20 Turning to
As Idenix emphasizes, the ’597 patent includes experimental
data on four compounds, each with a 2'-methyl up and hydroxyl
(OH) group at 2' down and 3' down. The tables listing this data
at least implicitly suggest to a POSA that the tested compounds
are antivirally active. (See, e.g., Meier Tr. at 1862 (opining that
POSA “would understand that this compound has antiviral
activity because otherwise he would never run an in vivo assay in
a monkey”); see also id. at 2003–06) While this data provided
some limited additional “guideposts,” neither this data (nor any
other part of the patent) disclosed any teaching about the activity
(or any other characteristic) of a 2'-fluoro down compound, and
data for four compounds was inadequate to render predictable the
activity of all compounds meeting the structural limitations of the
claims.
20

Idenix also makes much of a Pharmasset grant application
which credited Idenix’s patent application for disclosing
“modified nucleoside analogues with potent inhibition of the HCV
NS5B polymerase,” including 2'-methyl modified nucleosides.
(See, e.g., D.I. 554 at 7) (citing PX0764.0023) But the Pharmasset
grant application does not call out Idenix as having disclosed a 2'
fluoro down compound. As Gilead explains, “It’s no more [of a]
comment on the full scope of this claim as we transfer from OH
down to anything else at 2' than [is] the patent.” (Arg. Tr. at 92)
Similarly, Idenix points to a 2003 De Francesco article that
credited Idenix’s application with disclosing 2'-methyl
ribonucleosides compounds “for the treatment of HCV.” (D.I. 554
at 7) (citing PX0702.0118) However, the article does not credit
Idenix with having enabled the full scope of the claims or even for

109a
the “nature and predictability of the field,” including
the state of the prior art, and the level of ordinary skill,
while nucleoside chemistry was a well-studied field
populated with highly skilled POSAs, the use of such
compounds to treat HCV constituted a novel, highly
unpredictable endeavor at the pertinent time. Finally,
while the scope of claimed compounds is drastically
reduced by the claims’ Functional Limitations,
seemingly minute differences can alter whether
compounds meeting the claims’ Structural Limitations
will also meet its Functional Limitations. Only
through experimentation, not prediction, could a
POSA determine if a particular compound would meet
the Functional Limitations. In this way, the scope of
the claims can only be found to support
nonenablement.
Because the Structural Limitations are satisfied by
such a large number of compounds, and because of the
other Wands factors as applied here, the amount of
experimentation to refine this broad set of compounds
to those that also satisfy the Functional Limitations,
given the limited teachings on this point in the patent
and the state of the prior art, is an “undue” amount.
See generally Erfindergemeinschaft Uropep GBR v. Eli
Lilly and Co., 2017 WL 3676736, at *21 (E.D. Tex.
Aug. 25, 2017) (“In the context of a disclosure and a
field that provides no guidance, aimless plodding
through systematic experimentation of a single
compound that would take weeks may be undue.”); see
also Ariad, 598 F.3d at 1353 (“Patents are not awarded
for academic theories, no matter how groundbreaking
disclosing a 2'-fluoro down embodiment. Instead it refers to a
single compound. (See D.I. 565 at 4 n.1) (summarizing evidence)

110a
or necessary to the later patentable inventions of
others.”). Thus, the only conclusion that can be
reached based on the trial record is that the asserted
claims of the ’597 patent are invalid for lack of
enablement.
e.

Comparison to Wyeth

The Court’s conclusions are further supported by a
comparison between this case and what the Federal
Circuit confronted in Wyeth and Cordis Corp. v. Abbott
Labs., 720 F.3d 1380 (Fed. Cir. 2013).
Wyeth
considered the validity of patents relating to the use of
a class of compounds called rapamycin for treatment
of restenosis, which is the “renarrowing” of an artery
due to vascular injury that may result from inflation
of a balloon catheter to clear plaque blockages. Id. at
1382. The patent at issue claimed methods that
involved “administering an antirestenosis effective
amount of rapamycin.” Id. While the claim was to this
genus, the patent disclosed “only one rapamycin
species, called sirolimus.” Id. It was known that
“sirolimus acts in part by binding two proteins at sites
within the macrocyclic ring,” and that there were four
additional compounds that shared the same
macrocyclic ring. Id. at 1383. The specification
disclosed in vivo and in vitro testing data. Id. The
term “rapamycin” was construed to include all
compounds containing sirolimus’s macrocyclic ring
that had “immunosuppressive and anti­restenotic
effects.” Id.
The District Court found that practice of the full
scope of the claims required undue experimentation
and granted summary judgment of invalidity for lack

111a
of enablement. Id. On Wyeth’s appeal, the Federal
Circuit affirmed. Id. at 1386.
Wyeth argued that a POSA would “readily know
how to practice the full scope of the claims” by first
“ascertain[ing] whether a candidate rapamycin
compound has the same macrocyclic ring as
sirolimus,” and then using assays to determine
whether that candidate is effective. Id. at 1384.
Despite the existence of “millions of compounds” that
could meet the claims’ structural limitations, Wyeth
continued, “the number of compounds that would
exhibit the recited functional effects would be
significantly smaller.” Id. Wyeth further suggested
that a POSA would reduce the range of candidates by
focusing on permeability across cell membranes,
which occurs in compounds having certain molecular
weights. See id.
The Federal Circuit rejected Wyeth’s contentions.
The Court observed that, even accepting Wyeth’s
representations regarding an implicit molecular
weight limitation, there were still “at least tens of
thousands of candidates” to screen; the specification
was “silent about how to structurally modify
sirolimus;” it would be necessary to “first synthesize
and then screen each candidate” to determine
effectiveness; and the record and specification offered
no guidance as to which “particular substitutions” at
substituent positions might be “preferable” or would
preserve sirolimus’ effective properties. Id. at 1385–
86 (emphasis added). In reaching these conclusions,
the Court cited expert testimony that “until you test
[compounds], you really can’t tell whether they work
or not.” Id. at 1385 (alteration in original). The claims
were invalid because “practicing the full scope of the

112a
claims would require synthesizing and screening each
of at least tens of thousands of compounds.” Id. at
1385.
Even putting aside the challenges of
synthesizing all these compounds, the amount of
experimentation required would be excessive as “it
would take technicians weeks to complete each of
these assays.” Id. at 1386.
The parallels between Wyeth and the instant case
are striking. As in Wyeth, Idenix claimed a new use
for an existing class of compounds, but the patent
contains limited disclosure of functional species. See
id. at 1384. In other words, “the invention is a new
method
of
use
of
[]
known
[disclosed]
compound[s] . . .and any other compounds that meet
the construction’s structural and functional
requirements.” Id. at 1385. Although much was
known about nucleoside chemistry at the pertinent
date,
the
chemical
arts
remain
generally
unpredictable and, as with the “limited knowledge of
treatment of restenosis using sirolimus at the time of
the invention” in Wyeth, id. at 1384, the study of
nucleoside treatments for HCV at the time of Idenix’s
patent application was “in its infancy” (Meier Tr. at
1927–28), and remained unpredictable for at least the
ensuing decade (Meier Tr. at 1939–40).
More
particularly, as in Wyeth, the evidence here is that
“even minor alterations to the . . .[candidate] molecule
could impact its . . . [treatment] properties.” Wyeth,
720 F.3d at 1385. Further, as Idenix’s expert,
Dr. Gosselin, testified, “you don’t know whether or not
a nucleoside will have activity against HCV until you
make it and test it.” (Gosselin Tr. at 1334) The
amount of time and effort to synthesize and screen
compounds potentially meeting the limitations of the

113a
claims of the ’597 patent contributes to the finding of
lack of enablement, just as it did in Wyeth. See 720
F.3d at 1385 (“The remaining question is whether
having to synthesize and screen each of at least tens
of thousands of candidate compounds constitutes
undue experimentation. We hold that it does.”).
As with the patent invalidated in Wyeth, Idenix’s
patent requires a “systematic screening process” to
identify the full range of 2'-methyl ribonucleosides
falling within the broad structural and functional
scope of the claims Idenix pursued. Wyeth, 720 F.3d
at 1386. To the extent that the jury’s verdict was
based on a factual finding that such an extended
screening process was not required, it was
unreasonable. To the extent that the jury found the
specification to be enabling in spite of that fact, its
conclusion was legally erroneous in light of the
Federal Circuit’s holding in Wyeth. Like in Wyeth,
here, too, a patent that merely provides “a starting
point” “to engage in an iterative, trial-and-error
process to practice the claimed invention,” lacks
enablement.
Id. at 1386 (internal quotation
omitted). 21
Idenix is generally correct that enablement does not require
that a POSA be able to actually make and use every embodiment
and to do so within some definite, short period. (See generally
Arg. Tr. at 50–51) (“[T]he meaning of . . . enable[ment] for the full
scope of the claim is that a skilled artisan can take this invention,
2'-methyl ribonucleosides, not specific to OH down, and can . . .
make such compounds without undue experimentation. It
doesn’t mean that they can make them all simultaneously this
week but if they wanted, if they set out to try to make a
compound, they will be able to do that without undue
experimentation.”)) Still, an enabling disclosure is the “quid pro
quo of the right to exclude,” J.E.M. Ag Supply, Inc. v. Pioneer
21

114a
f.

Comparison to Enzo

Still further support for the Court’s conclusion is
found in a comparison of the instant case to this
Court’s recent decisions in the Enzo cases.
In Enzo Life Sciences., Inc. v. Gen-Probe Inc., 2017
WL 2829625, at *7 (D. Del. June 28, 2017); Enzo Life
Sciences, Inc. v. Abbott Laboratories, 2017 WL
3585618 (D. Del. Aug. 15, 2017) (collectively, “Enzo”),
this Court found claims to be nonenabled because they
were “far broader” than in Wyeth, the relevant
disclosures were “far less” than in Wyeth, the “relevant
field is even more unpredictable” than in Wyeth, and
the trial-and-error screening process to practice the
entire scope of the broad claims “would have taken
even longer” than in Wyeth. The comparison here to
Enzo is difficult, as the total breadth of the claims of
Hi­Bred Intern., Inc., 534 U.S. 124, 142 (2001) (emphasis in
original), and Idenix was accordingly obliged to provide a
disclosure that would enable every species of the broad genus it
claims, see Wyeth., 720 F.3d at 1385 (observing that “practicing
the full scope of the claims would require synthesizing each of at
least tens of thousands of compounds”). The Federal Circuit has
held that, to be enabling, a patent specification must teach a
POSA “how to make and use the full scope of the claimed
invention without undue experimentation.” MagSil, 687 F.3d at
1380 (internal quotation marks omitted; emphasis added). What
this directive means in the context of any particular patent —
including how long it may take a POSA to make and use every
embodiment — before any particular patent is deemed to lack an
adequately enabling disclosure, can vary. Here, as in Wyeth,
given the unpredictability of the art, and the consequent reality
that synthesis and screening were necessary before a POSA could
determine if a given compound meeting the structural limitations
is also active and effective for the purpose stated in the claim, the
only reasonable conclusion is that the claims here are not
enabled.

115a
the ’597 patent is unclear, the ’597 patent’s disclosures
appear broader than those involved in Wyeth, the
fields appear similarly unpredictable, and the
evidence of record leaves it unclear as to just how long
the relevant experimentation would take.
But, similarly to in Enzo, the ’597 patent essentially
discloses an iterative screening plan for isolating
effective compounds, with one useful guidepost (2'methyl up) and other markers that are not especially
helpful.
In attempting to distinguish Enzo, Idenix falls back
on the undisputed fact that it was “routine in this field
for skilled artisans to arrange and work with classes
of compounds on the order of a billion.” (D.I. 554 at
10) Even so, it is clear that, as in Wyeth, exploring the
claims’ full scope would require synthesizing and
screening a significant number of candidates, time­
consuming processes with unpredictable results.
In sum, while the comparison to Enzo may not favor
Gilead as strongly as Gilead contends, it does nothing
to help Idenix. 22
g.

Conclusion with respect to
enablement

For the reasons stated above, a reasonable jury,
even taking all the evidence in the light most favorable
22 Idenix compares this case to Uropep, 2017 WL 3676736, in
which Federal Circuit Judge Bryson, sitting by designation,
rejected a JMOL motion following a jury verdict denying a
nonenablement defense.
While the Court has carefully
considered Uropep, the Court concludes that the more pertinent
comparisons are to Wyeth and Enzo. Each case, of course, must
rise or fall on its own facts, and here these fully support Gilead’s
position (under the applicable law), and not Idenix’s.

116a
to Idenix and drawing all reasonable inferences in
favor of Idenix, could only have concluded that
Idenix’s ’597 patent is invalid due to lack of
enablement. The only reasonable finding, based on
the trial record, is that Gilead met its burden to prove
nonenablement by clear and convincing evidence. The
trial revealed that there are no genuinely disputed
material facts with respect to enablement.
Accordingly, Gilead is entitled to judgment as a matter
of law that the asserted claims of the ‘597 patent are
invalid due to lack of enablement.
V.

CONCLUSION

For the reasons given above, the Court finds that
the ’597 patent is invalid for lack of enablement, and
Gilead’s renewed motion for judgment as a matter of
law will be granted on that basis. The Court will deny
Gilead’s JMOL as to damages and written description.
An appropriate Order follows.

